<html>
<title> - REORIENTING THE U.S. GLOBAL CHANGE RESEARCH PROGRAM TOWARD A USER-DRIVEN RESEARCH ENDEAVOR: H.R. 906</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   REORIENTING THE U.S. GLOBAL CHANGE
                 RESEARCH PROGRAM TOWARD A USER-DRIVEN
                      RESEARCH ENDEAVOR: H.R. 906

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2007

                               __________

                           Serial No. 110-26

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
34-910                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
         ELAINE PAULIONIS Democratic Professional Staff Member
            AMY CARROLL Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                              May 3, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Gabrielle Giffords, Acting Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     8

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10
    Written Statement............................................    11

Statement by Representative Mark Udall, Member, Subcommittee on 
  Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

                               Witnesses:

Dr. Michael C. MacCracken, President, the International 
  Association of Meteorology and Atmospheric Sciences of the 
  International Union of Geodesy and Geophysics; Chief Scientist 
  for Climate Change Programs, Climate Institute, Washington, DC
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    25

Dr. Jack D. Fellows, Vice President, University Center for 
  Atmospheric Research
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    33

Dr. James R. Mahoney, Environmental Consultant; Former Assistant 
  Secretary of Commerce for Oceans and Atmosphere, Deputy 
  Administrator of the National Oceanic and Atmospheric 
  Administration, and Director of U.S. Climate Change Science 
  Program
    Oral Statement...............................................    33
    Written Statement............................................    36
    Biography....................................................    38

Mr. Franklin W. Nutter, President, The Reinsurance Association of 
  America; Member of UCAR's Board of Trustees
    Oral Statement...............................................    39
    Written Statement............................................    41
    Biography....................................................    44

Dr. Philip W. Mote, Climate Impacts Group, University of 
  Washington; Office of Washington State Climatologist and 
  Affiliate Professor at the University of Washington
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    60

Ms. Sarah Bittleman, Director, Washington, D.C., Office of the 
  Governor of Oregon, Theodore R. Kulongoski, on behalf of the 
  Western Governors' Association
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion
  The USGCRP Budget Process......................................    64
  Assessment Timeline............................................    66
  Regional vs. National Assessments..............................    68
  The Insurance Industry's Perspective...........................    68
  More on Regional vs. National Assessments......................    68
  Climate Change Mitigation and Adaptation.......................    69

              Appendix: Additional Material for the Record

H.R. 906, the Global Change Research and Data Management Act of 
  2007...........................................................    74


   REORIENTING THE U.S. GLOBAL CHANGE RESEARCH PROGRAM TOWARD A USER-
                   DRIVEN RESEARCH ENDEAVOR: H.R. 906

                              ----------                              


                         THURSDAY, MAY 3, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Gabrielle 
Giffords [Acting Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Reorienting the U.S. Global Research

                      Program Toward a User-Driven

                      Research Endeavor: H.R. 906

                         thursday, may 3, 2007
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, May 3, 2007 the Subcommittee on Energy and Environment 
of the Committee on Science and Technology will hold a hearing to 
receive testimony on H.R. 906, the Global Climate Change Research Data 
and Management Act of 2007.
    Introduced by Representative Mark Udall and Representative Robert 
Inglis, H.R. 906 would replace the current law that formally 
established the U.S. Global Change Research Program (USGCRP) in 1990 
and reorient the program to produce more user-friendly research and 
information. The USGCRP has advanced our scientific knowledge of the 
Earth's atmosphere and climate and has provided us with new data and 
information on the planet. However, scientific knowledge about the 
Earth's climate has expanded and improved since 1990. There is a need 
to apply the improved knowledge we have gained about climate to produce 
information that federal, State, and local officials, resource 
managers, and businesses can use to develop response, adaptation, and 
mitigation strategies to reduce their vulnerability to climate change.
    The Global Change Research and Data Management Act would require 
the Administration to identify and consult with members of the user 
community in developing the USGCRP research plan. The bill would also 
establish a new interagency working group to coordinate federal 
policies on data management and archiving. The measure would also 
retain language from the original statute that establishes the USGCRP 
and call for the administration to produce a national assessment of 
climate change every four years.

USGCRP Background

History of the Current Law
    U.S. Global Change Research Act of 1990 (Public Law 101-606) was 
signed into law by President Bush on November 16, 1990. However, prior 
to passage of this legislation Congress and the Reagan and Bush 
Administrations established programs, advisory bodies and mechanisms to 
undertake climate change research and develop climate change policy.
    The Climate Program preceded the USGCRP and was established by the 
National Climate Program Act (P.L. 95-367) in 1978. The Climate Program 
was intended to conduct climate research, provide climate information, 
and to support policy decisions to ``assist the Nation and the world to 
understand and respond to natural and human-induced climate processes 
and their implications'' (P.L. 95-367,  3). It was established as an 
interagency program coordinated through a National Climate Program 
Office within the National Oceanic and Atmospheric Administration 
(NOAA). By the mid-1980s Congress began to consider expanding the 
Climate Program. At the time, the program was thought to be producing 
high quality science, but it was not providing information that would 
lead to policy responses to threats from climate change.
    In the 1980s, climate change policies were developed within the 
White House although there were a number of climate change advisory 
groups and other decision-making groups within individual federal 
agencies. President Reagan established five Councils in the White 
House. In 1985, these five Councils were consolidated within two--a 
Domestic Policy Council and an Economic Policy Council.\1\ Climate 
change policy was discussed within the Domestic Policy Council and 
first came to the attention of this Council because of public attention 
being paid to Congressional hearings being held to air concerns of the 
scientific community about the potential consequences of increasing 
greenhouse gases in the atmosphere.
---------------------------------------------------------------------------
    \1\ Brownstein, R. and D. Kirschtien. 1986. Cabinet Power. National 
Journal June 28 1582-1589. Referenced in: R.A. Pielke, Jr. 2001. The 
Development of the U.S. Global Change Research Program: 1987-1994.
---------------------------------------------------------------------------
    In 1987, White House Science Advisor William Graham formed the 
Committee on Earth Sciences within the Federal Coordinating Council on 
Science, Engineering, and Technology (FCCSET). The purpose of this 
Committee was to ``increase the overall effectiveness and productivity 
of federal R&D efforts directed toward an understanding of the Earth as 
a global system'' (CES 1987).
    After several years of work, Congress passed, and President Bush 
signed, The U.S. Global Change Research Act of 1990 (Public Law 101-
606) which established the U.S. Global Change Research Program we have 
today. The Program is aimed at understanding and responding to global 
change, including the cumulative effects of human activities and 
natural processes on the environment, and to promote discussions toward 
international protocols in global change research. The law codified the 
interagency structure put in place by the Reagan Administration and 
defined the agencies that would participate in the program. The law 
also requires development of a series of 10-year Plans for the conduct 
of research on global change by the Federal Government to: ``advance 
scientific understanding of global change and provide usable 
information on which to base policy decisions related to global 
change,'' an evaluation of the Plan by the National Research Council, 
the coordination of agency budgets for global change research, and a 
report to Congress every four years on the consequences of climate 
change.
    While research Plans have been produced periodically by the Program 
and reviewed by the National Research Council as required by the law, 
the production of periodic assessments of the findings of the global 
change program and the effects of global change on natural systems and 
sectors of the economy has been lacking. There has been only one 
comprehensive report published since the beginning of the program 
satisfying this requirement of the law--the National Assessment on 
Climate Change published in 2001.
Current Administration Climate Change Initiatives
    The current Administration has a number of initiatives that are 
related to past efforts conducted under the Global Change Research Act. 
The Climate Change Science Program (CCSP) is charged with integrating 
science on global change produced by federal agencies. The Program is 
producing a series of twenty one synthesis and assessment products on a 
range of subjects (http://www.climatescience.gov/). The Administration 
also has a Climate Change Research Initiative (CCRI) and the Climate 
Change Technology Program (CCTP), with NOAA and DOE designated as the 
lead agencies, respectively. The role of the CCRI is to reduce the 
significant remaining uncertainties associated with understanding 
human-induced climate change and facilitate full use of scientific 
information in policy and decision-making on possible response 
strategies for adaptation and mitigation. The role of the CCTP is to 
focus research and development efforts on the identification and 
development of technologies that will achieve the Administration's 
climate change goals.
    This policy has three basic objectives: slowing the growth of 
emissions, strengthening science, technology and institutions, and 
enhancing international cooperation. However, in 1990, total U.S. GHG 
emissions were 1,671 million metric tons in carbon equivalents (MMTCE). 
In 2000, total U.S. GHG emissions were 14.1 percent above 1990 levels, 
or 1,907 MMTCE. Even if the Administration's climate change goals are 
met, U.S. emissions of greenhouse gases will continue to grow.
    The requested budget for the major climate change programs in 2007 
was estimated by the Congressional Research Service to be 4.9 billion 
dollars.\2\ The participating agencies include virtually every 
department in the Federal Government: NASA, NSF, NOAA, DOE, USDA, DOI, 
HHS, EPA, the Smithsonian Institution and DOD. The core agencies that 
have contributed to climate change science are NASA, NOAA, NSF, and 
DOE.**
---------------------------------------------------------------------------
    \2\ Congressional Research Service (2007). Climate Change: Federal 
Expenditures; January 22; p. 3; Table 1. RL33817.

**The FY 2007 request for the Climate Change Science Program (CCSP) is 
---------------------------------------------------------------------------
1.7 billion dollars.

Current State Initiatives on Climate Change
    Absent of coordinated federal direction on adapting to climate 
change impacts, regions and states have taken action on their own to 
develop integrated plans to serve multiple user communities. Many 
states view policies that address climate change as an economic 
opportunity, rather than a financial burden. These states are 
positioning themselves as leaders in emerging markets related to 
climate change: producing and selling alternative fuels, exploring 
geographic specific adaptation strategies, attracting climate action 
related businesses, and selling greenhouse gas emission reduction 
credits.
    In addition, regional efforts have been successful coordinating 
initiatives across state boundaries. These regional plans eliminate 
duplication for states with similar geographic makeup and help 
businesses by bringing greater uniformity and predictability to State 
rules and regulations. For example, Powering the Plains is a regional 
initiative, involving participants from the Dakotas, Minnesota, Iowa, 
and Wisconsin, which aims to develop strategies, policies, and 
demonstration projects for alternative energy sources. The Southwest 
Climate Change Initiative will allow Arizona and New Mexico to work 
together to reduce greenhouse gases and address the impacts of climate 
change in the region. Other such projects include the Northeast 
Regional Greenhouse Gas Initiative (RGGI), The Clean and Diversified 
Energy Initiative launched by the Western Governors Association, The 
West Coast Governors' Global Warming Initiative, and the New England 
Governors' and Eastern Canadian Premiers' Climate Action Plan. These 
regional and State programs would greatly benefit from a user-driven 
Climate Change Research Program, as established in H.R. 906.
The USGCRP under H.R. 906
    The USGCRP has continued to produce high quality science and 
advance our knowledge of Earth's climate system. However, the Program 
has not produced much in the way of substantive policy analyses or 
produced information in formats that are useful and accessible to the 
wide range of individuals and organizations who desire information 
about climate variability and change and its relationship to different 
concentrations of greenhouse gases in the atmosphere. It has not 
produced information that will assist decision-makers at the federal, 
State, and local level in the development of response, adaptation and 
mitigation strategies.
    H.R. 906 directs the Program to develop assessments of 
vulnerability to climate change and to develop policy assessments that 
will evaluate alternative strategies for responding, adapting, and 
mitigating climate change that is projected to occur under different 
atmospheric concentrations of greenhouse gases.
    The components of the core science programs of the USGCRP continue 
to produce useful scientific information and better, more refined 
understanding of the climate system. H.R. 906 does not eliminate these 
programs and activities. Instead, H.R. 906 shifts the emphasis to the 
production of information that is needed to develop strategies to cope 
with current climate change and to mitigate greenhouse gas emissions to 
reduce the magnitude of future climate impacts. To ensure the Program 
produces policy-relevant information, H.R. 906 includes a review of the 
Program by the National Governors Association's Center for Best 
Practices.
    The major scientific debate is settled. Climate change is 
occurring. It is impacting our nation and the rest of the world and 
will continue to impact us into the future. The USGCRP should move 
beyond an emphasis on addressing uncertainties and refining climate 
science. In addition, the Program needs to provide information that 
supports action to reduce vulnerability to climate and other global 
changes and facilitates the development of adaptation and mitigation 
strategies that can be applied here in the U.S. and in other vulnerable 
locations throughout the world.

Witnesses

Dr. Philip Mote, Office of Washington State Climatologist and Affiliate 
Professor at the University of Washington

    Dr. Philip Mote is a research scientist at the University of 
Washington, in the Climate Impacts Group (CIG), and an Affiliate 
Professor in the Department of Atmospheric Sciences. In addition, Dr. 
Mote works as a consultant at Northwest Research Associates 
specializing in the dynamics of the tropical upper troposphere and 
lower stratosphere. He received his B.A. in Physics from Harvard 
University in 1987 and completed his doctorate in Atmospheric Sciences 
at the University of Washington in 1994. His research interests 
include: Northwest climate and its effects on snowpack, streamflow, and 
forest fires. A frequent public speaker, he has also written over fifty 
scientific articles and edited a book on climate modeling, published in 
2000. In 2003, Dr. Mote became the Washington State Climatologist.

Dr. Michael MacCracken, President of the International Association of 
Meteorology and Atmospheric Sciences of the International Union of 
Geodesy and Geophysics

    Dr. Michael MacCracken is the Chief Scientist for Climate Change 
Programs with the Climate Institute in Washington DC. He received his 
B.S. in Engineering degree from Princeton University in 1964 and his 
Ph.D. degree in Applied Science from the University of California 
Davis/Livermore in 1968. His research has included numerical modeling 
of various causes of climate change (including study of the potential 
climatic effects of greenhouse gases, volcanic aerosols, land-cover 
change, and nuclear war) and of factors affecting air quality, 
including photochemical pollution in the San Francisco Bay Area and 
sulfate air pollution in the northeastern United States.
    From 1993-2002, Dr. MacCracken was on assignment as senior global 
change scientist to the Office of the U.S. Global Change Research 
Program (USGCRP) and served as its first Executive Director from 1993-
1997. From 1997-2001, he served as Executive Director of the USGCRP's 
National Assessment Coordination Office, which coordinated the efforts 
of 20 regional assessment teams, five sectoral teams, and the National 
Assessment Synthesis Team that prepared the national level reports that 
were forwarded to the President and to the Congress.

Dr. Jack Fellows, Vice President at the University Center for 
Atmospheric Research (UCAR)

    Dr. Jack Fellows is the Vice President for Corporate Affairs at 
UCAR and the Director of UCAR's Office of Programs (UOP). As Director 
of the UOP, he is responsible for a broad range of scientific and 
educational programs that serve the atmospheric and related research 
and education community. Dr. Fellows received his Ph.D. in Civil 
Engineering from the University of Maryland.
    Dr. Fellows began his career as a research faculty member at the 
University of Maryland, where he conducted research in the use of 
satellite data in hydrologic models. In 1984, he spent a year in the 
U.S. Congress as the American Geophysical Union's Congressional Science 
Fellow. While in Congress, he split his time between the personal 
office of George Brown (D-CA) and the House Science and Space 
Subcommittee and worked on a range of policy issues, including water 
resources, satellite remote sensing, and general oversight of federal 
research and development funding. After this, he spent 13 years in the 
Executive Office of President's Office of Management and Budget (OMB) 
overseeing budget and policy issues related to the National Aeronautics 
and Space Administration, the National Science Foundation, and federal-
wide research and development programs. During this period with OMB, he 
helped to initiate the U.S. Global Change Research Program and to 
coordinate funding from the participating federal agencies in the new 
interagency research program.

Mr. Franklin Nutter, President of the Reinsurance Association of 
America and Member of UCAR's Board of Trustees

    Mr. Franklin Nutter has been an active member of the UCAR Board of 
Trustees and prior to that served on the NCAR Advisory Council and the 
Weather Coalition, a group of private companies, associations, and 
universities advocating for the advancement of weather research and 
applications. He received his Juris Doctorate from the Georgetown 
University Law Center and a Bachelor's degree in economics from the 
University of Cincinnati.
    Mr. Nutter has been President of the Reinsurance Association of 
America (RAA) since May of 1991. Through his involvement as President, 
he coordinated events with the UCAR Corporate Affiliates Program. 
During his distinguished career in the insurance and reinsurance 
industries, Mr. Nutter has promoted the use of weather and climate 
models and has helped to advance the atmospheric sciences. An expert on 
societal impacts of severe weather and climate change, Mr. Nutter has 
been called upon to address the U.S. Climate Change Science Program 
Planning Workshop, the Pew Center Workshop on the Timing of Climate 
Change Policies, and the AGU's Coastal Hazards Reduction Workshop.

Ms. Sarah Bittleman, Office of the Governor of Oregon, Theodore R. 
Kulongoski, on behalf of the Western Governors Association

    Ms. Sarah Bittleman is the Director of the Governor of Oregon's 
Washington D.C. office. She assumed this position a year ago after 
having spent 10 years on Capitol Hill as a staffer for both Republicans 
and Democrats, in both the House and the Senate and in personal offices 
as well as the Committee on Energy and Natural Resources. She followed 
the climate change debate closely in all her positions on the Hill, 
most recently drafting a forest carbon sequestration bill as the 
Natural Resources Counsel for Senator Ron Wyden of Oregon. Ms. 
Bittleman has a Masters in Public Administration from East Carolina 
University as well as a JD from Tulane University in New Orleans.

Dr. James Mahoney, Environmental Consultant

    Dr. James Mahoney currently serves as an environmental consultant, 
providing scientific and professional advice to a number of 
organizations. From April 2, 2002 to March 30, 2006 he was Assistant 
Secretary of Commerce for Oceans and Atmosphere, and Deputy 
Administrator of the National Oceanic and Atmospheric Organization 
(NOAA). During this period, Dr. Mahoney served as the Director of the 
U.S. Climate Change Science Program (CCSP).
    Dr. Mahoney received a B.S. degree in Physics from LeMoyne College 
and a Ph.D. degree in meteorology from the Massachusetts Institute of 
Technology (MIT). His career has involved more than forty years of 
continuous focus on environmental management and the Earth sciences, 
with an emphasis on the atmospheric, climate, hydrological and 
oceanographic areas. After completing his Ph.D., he joined the Faculty 
of Public Health at Harvard University, in its Department of 
Environmental Health Sciences. Dr. Mahoney entered the public service 
in 1988 as Director of the National Acid Precipitation Assessment 
Program, working in the Executive Office of the President. NAPAP was 
charged with recommending sound approaches to controlling acid rain 
effects, while providing for continued energy and economic security for 
the Nation.
    Ms. Giffords. [Presiding] The Committee will come to order. 
Good afternoon, everyone. I want to take a moment to welcome 
you, and to recognize the Subcommittee's hearing called today 
to receive testimony on House Resolution 906, the Global 
Climate Change Research Data and Management Act of 2007.
    This is an important bill that will help us to better 
address climate change in the country, and I want to thank my 
colleagues, Representative Mark Udall and Ranking Member Bob 
Inglis, for taking action and introducing this legislation.
    Through bills like H.R. 906, Congress is starting to take 
action to address the global conundrum that is climate change. 
It is not an exaggeration to say that the world's future 
depends on our response. The clock is ticking, and Congress 
must work across party lines to pass concrete solutions as soon 
as possible. I think this bill represents just that kind of 
needed bipartisanship.
    [The prepared statement of Ms. Giffords follows:]

        Prepared Statement of Representative Gabrielle Giffords

    Good Afternoon. I want to welcome everyone to today's Subcommittee 
hearing called to receive testimony on H.R. 906, the Global Climate 
Change Research Data and Management Act of 2007. This is an important 
bill that will help us to better address climate change in this 
country, and I want to thank my colleagues, Representative Mark Udall 
and Ranking Member Bob Inglis, for taking action and introducing this 
legislation.
    Through bills like H.R. 906, Congress is starting to take action to 
address the global conundrum that is climate change. It is not an 
exaggeration to say that the world's future depends on our response. 
The clock is ticking, and Congress must work across party lines to pass 
concrete solutions as soon as possible. I think this bill represents 
just that kind of needed bipartisanship.
    H.R. 906 would reorient the U.S. Global Change Research Program to 
produce more user-friendly research and information. In addition, the 
Act would require the Administration to identify and consult with 
members of the user community in developing the USGCRP research plan.
    I believe that there is a real need to apply the improved knowledge 
we have about climate to produce information that federal, State, and 
local officials, resource managers, and businesses can use. Managers 
can then utilize that research to develop response, adaptation, and 
mitigation strategies to reduce their regions' vulnerability to climate 
change.
    Let's look at how H.R. 906 could impact the West and Arizona 
specifically. According to the IPCC and conversations of my own with 
distinguished climate scientists from the University of Arizona, I 
understand climate change could permanently reduce the flow of the 
Colorado River, lead to more severe, prolonged droughts, and cause 
water shortages for millions of people. More than 25 million people in 
Arizona and six other states depend on the Colorado River for water and 
power. Forest fires and invasive species are projected to increase, and 
we could face an influx of environmental refugees from around the 
world. This would drastically affect our quality of life.
    What steps are currently being taken to develop response strategies 
to reduce the Southwest's vulnerability to climate change? In February 
of 2006, the Governors of Arizona and New Mexico signed an agreement to 
create the Southwest Climate Change Initiative. Under the agreement, 
our states will collaborate to reduce greenhouse gas emissions and 
address the impacts of climate change in the Southwest. However, in 
order to do that, our State planners need relevant data to make the 
best decisions on how to respond.
    That's where H.R. 906 comes in. Climate change is happening in the 
Southwest, but Arizona can help moderate the change. With the new user-
driven data provided by the reorientation of the U.S. Global Change 
Research Program, State legislatures, local officials, resource 
managers, and businesses could all begin to adjust their plans to help 
Arizona avoid the worst of the impacts of climate change.
    I take the challenge of addressing global warming very seriously, 
and it is one of my highest priorities in Congress. This will not only 
result in a stronger economy, innovative technologies, and the creation 
of hundreds of thousands of jobs, but also a more stable and 
sustainable world.
    I want to welcome our entire distinguished panel to this morning's 
hearing. I look forward to your testimony and to your recommendations 
for improving H.R. 906.

    Ms. Giffords. At this time, I would like to recognize the 
author of the legislation, Representative Udall, for some 
opening remarks.
    Mr. Udall. Thank you, Madam Chairwoman. Good afternoon to 
the panel and my colleagues who have joined us here.
    I want to begin by thanking Chairwoman Giffords for holding 
this hearing on H.R. 906, the Global Change Research and Data 
Management Act of 2007, that I introduced earlier this year, 
with my colleague and our Ranking Member, Mr. Inglis.
    I look forward to working together as this bill moves 
forward. The U.S. Global Change Research Program has been in 
existence in some form since the late 1970s. Support for the 
diverse array of climate-related sciences in the 11 agencies of 
the Federal Government has expanded our knowledge of Earth's 
land, water, and atmospheric systems. The outstanding science 
produced by our nation's scientific community has gained the 
U.S. worldwide recognition as a leader in climate science.
    This research has been shared with the rest of the world 
through international scientific organizations, such as the 
World Meteorological Organization and the Intergovernmental 
Panel on Climate Change. The evolution of global science and 
the global change issue sparked the need to make changes to the 
1970 National Climate Program Act, and gave us the Global 
Change Research Act of 1990. It is now time for another 
adjustment to alter the focus of the program governed by this 
law.
    The debate about whether climate change is occurring, and 
about whether human activity has contributed to it, is over. As 
our population, economy, and infrastructure have grown, we have 
put more pressure on the natural resources we all depend upon. 
Each year, fires, droughts, hurricanes, and other natural 
events remind us of our vulnerability to extreme weather and 
climate changes. The human and economic cost of these events is 
very high. With better planning and implementation of 
adaptation strategies, these costs can be reduced.
    For all of these reasons, we need the USGCRP to produce 
more information that is readily usable by decision-makers and 
resource managers in government and in the private sector. 
People throughout the country and in the rest of the world need 
information they can use to develop response, adaptation, and 
mitigation strategies to make our communities, our businesses, 
and our nation more resilient and less vulnerable to the 
changes that are inevitable.
    We must also move aggressively to reduce greenhouse gas 
emissions if we are to avoid future increases in surface 
temperature that will trigger severe impacts that we cannot 
overcome with adaptation strategies. We need economic and 
technical information, as well as information about system 
responses and climate responses to different concentrations of 
greenhouse gases in the atmosphere. The USGCRP should be the 
vehicle for providing this information.
    Madam Chairwoman, we have a very distinguished panel of 
witnesses here today, several of whom have a great deal of 
experience with the USGCRP. I look forward to your testimony, 
and welcome your suggestions for improvements to H.R. 906. Our 
goal is to ensure that the excellent science produced by this 
program is expanded and translated into user-friendly 
information to deliver the solutions our nation needs to 
address the challenge of climate change.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good afternoon. Thank you, Chairwoman Giffords for holding this 
hearing on H.R. 906, the Global Change Research and Data Management Act 
of 2007 that I introduced earlier this year with my colleague and our 
Ranking Member, Representative Inglis. I look forward to working 
together as this bill moves forward.
    The U.S. Global Change Research Program (USGCRP) has been in 
existence in some form since the late 1970s. Support for the diverse 
array of climate-related sciences in the eleven agencies of the Federal 
Government has expanded our knowledge of Earth's land, water, and 
atmospheric systems. The outstanding science produced by our nation's 
scientific community has gained the U.S. worldwide recognition as a 
leader in climate science. This scientific work has been shared with 
the rest of the world through international scientific organizations 
such as the World Meteorological Organization and the Intergovernmental 
Panel on Climate Change.
    The evolution of global science and the global change issue sparked 
the need to make changes to the 1978 National Climate Program Act, and 
gave us the Global Change Research Act of 1990. It is now time for 
another adjustment to alter the focus of the program governed by this 
law.
    The debate, about whether climate change is occurring and about 
whether human activity has contributed to it, is over. As our 
population, economy, and infrastructure have grown, we have put more 
pressure on the natural resources we all depend upon. Each year, fires, 
droughts, hurricanes, and other natural events remind us of our 
vulnerability to extreme weather and climate changes. The human and 
economic cost of these events is very high. With better planning and 
implementation of adaptation strategies these costs can be reduced.
    For all of these reasons, we need the USGCRP to produce more 
information that is readily usable by decision-makers and resource 
managers in government and in the private sector. People throughout 
this country and in the rest of the world need information they can use 
to develop response, adaptation, and mitigation strategies to make our 
communities, our businesses, and our nation more resilient and less 
vulnerable to the changes that are inevitable.
    We must also move aggressively to reduce greenhouse gas emissions 
if we are to avoid future increases in surface temperature that will 
trigger severe impacts that we cannot overcome with adaptation 
strategies. We need economic and technical information as well as 
information about system responses and climate responses to different 
concentrations of greenhouse gases in the atmosphere. The USGCRP should 
be the vehicle for providing this information.
    We have a very distinguished panel of witnesses here today, several 
of whom have a great deal of experience with the USGCRP. I look forward 
to your testimony and welcome your suggestions for improvements to H.R. 
906. Our goal is to ensure the excellent science produced by this 
program is expanded and translated into user-friendly information to 
deliver the solutions our nation needs to address the challenge of 
climate change.

    Ms. Giffords. Thank you, Mr. Udall.
    And now, I would like to recognize our distinguished 
Ranking Member, Mr. Inglis of South Carolina, for his opening 
statement.
    Mr. Inglis. I thank the Chair, and I thank the Chair for 
holding the hearing, and Mr. Udall, for giving me the 
opportunity to work with him on this bill.
    This is an opportunity of bipartisan cooperation, and I 
think it makes sense, because this is a bill that can increase 
our awareness and our preparation for the impacts of climate 
change. Of course, I hope we can also move forward and develop 
a consensus on mitigation, as well, and the necessary start of 
that is the attempt to build consensus, and so, I thank Mr. 
Udall for doing that and pursuing this bill, and I am happy to 
be with him on the bill, and very excited about hearing from 
the witnesses here today.
    And you know, our current climate science programs at the 
National Oceanic and Atmospheric Administration and the 
National Science Foundation and the National Aeronautics and 
Space Administration and the U.S. Geological Survey have made 
great gains in deepening our understanding of global climate 
change, from what is causing it, to how our country and others 
might be affected.
    The sheer volume of data calls for an intelligent data 
management system which is designed to fulfill the needs of its 
users. The program must meet the additional challenge of 
presenting the data in a relevant form to users that have non-
scientific backgrounds, like State and local government 
operators.
    So, in South Carolina, I have been hearing from fishermen 
and hunters, who are particularly concerned about fish and 
animal population changes that could threaten our local 
ecotourism businesses. South Carolina's tourism business is 
actually the largest industry in our state, especially at our 
coast, and so, we are aware of the goose that is laying the 
golden eggs down at our coast, and we want to make sure that it 
continues to lay them there.
    So, this bill, as I say, the opportunities for building 
awareness and preparation, I think will help, and I am happy to 
be part of it and happy to hear from the witnesses, and I yield 
back.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Good afternoon. Thank you, Ms. Chairwoman, for holding this hearing 
on ways we might improve our climate science programs to make local 
users a part of the process.
    Our current climate science programs at the National Oceanic and 
Atmospheric Administration (NOAA), the National Science Foundation 
(NSF), the National Aeronautics and Space Administration (NASA), the 
United States Geological Survey (USGS) and other agencies have made 
great gains in deepening our understanding of global change--from what 
is causing it to how our country and others might be affected. The 
sheer volume of data calls for an intelligent data management system, 
designed to fulfill the needs of its users. The program must meet the 
additional challenge of presenting the data in a relevant form to users 
that have non-scientific backgrounds, such as State and local 
governments.
    In South Carolina, I've been hearing from fisherman and hunters who 
are concerned about fish and animal population changes that could 
threaten local eco-tourism businesses. South Carolina's tourism 
industry, the largest economic generator in the state, will need more 
information about changes to the coast as they plan for the future. 
These folks will also need the ability to let the climate programs know 
what's useful and where they require additional information.
    I believe we can find a bipartisan consensus to take action on 
improving our climate science programs. This issue has the potential to 
affect all of us and we must ensure that local users are informed and 
have a say in the process to get the information they need.
    I'm pleased that Dr. James Mahoney could be with us today. Dr. 
Mahoney is the former Director of the U.S. Climate Change Science 
Program and former Deputy Administrator for NOAA. His academic and 
professional experience makes him a valuable addition to this panel. 
I'm encouraged by the constructive feedback in his written testimony, 
and I thank him for coming to share his insight.
    Thank you again for holding this hearing, Ms. Chairwoman, and I 
look forward to hearing from all of our distinguished witnesses as to 
how we can most effectively structure our climate science programs.

    Ms. Giffords. Thank you, Mr. Inglis.
    I ask unanimous consent that all additional opening 
statements submitted by Subcommittee Members be included in the 
record. Without objection, so ordered.
    It is my pleasure now to introduce this excellent panel of 
witnesses that we have with us here this afternoon. First, we 
have Dr. Michael MacCracken, who is the Chief Scientist for 
Climate Change Programs at the Climate Institute here in 
Washington, D.C. Dr. MacCracken served as the Executive 
Director for the U.S. Global Change Research Program from 1993 
to 1997, and he has brought with him a stack of documentation 
that he can't leave with us, but I am sure he is going to speak 
about in terms of the data that exists.
    Second, we have Dr. Jack Fellows, who is the Vice President 
for Corporate Affairs at the University Center for Atmospheric 
Research in Boulder, Colorado, and the Director of UCAR Office 
of Programs. Dr. Fellows helped to initiate the U.S. Global 
Change Research Program when he worked in the Executive Office 
of the President's Office of Management and Budget. Thank you 
for being here, Dr. Fellows.
    Dr. James Mahoney currently serves as an environmental 
consultant, providing scientific and professional advice to a 
number of organizations. From April 2, 2002 to March 30, 2006, 
he was Assistant Secretary of Commerce for Oceans and 
Atmosphere and Deputy Administrator of the National Oceanic and 
Atmospheric Organization. During this period, Dr. Mahoney 
served as the Director of the U.S. Climate Change Science 
Program. It is so terrific having you here today. We had a 
chance to speak a little bit earlier. We are thrilled that you 
are here with us. Thank you, Dr. Mahoney.
    Mr. Franklin Nutter is the President of the Reinsurance 
Association of America, and a member of the University Center 
for Atmospheric Research's Board of Trustees. Good to see you, 
Mr. Nutter.
    Dr. Philip Mote is a Washington State climatologist, and an 
Affiliate Professor at the University of Washington. His 
research has focused on Northwest climate and its effects on 
snowpack, streamflow, and forest fires. Thank you, Dr. Mote.
    And Ms. Sarah Bittleman is the Director of the Governor of 
Oregon's Washington, D.C. office, and is testifying today on 
behalf of the Western Governors Association, and I know that 
Arizona's Governor, Janet Napolitano, obviously is very active 
with that association as well.
    So, welcome to all of you. Let me just say that we do have 
a series, a short series of votes that we don't know when they 
will come, but we believe that we should be adjourned by 4:00. 
So, my goal is to make sure that the testimony is limited to 
five minutes, which goes by very quickly, and you will see the 
indication, in terms of the lights.
    It is important that we get through, because we have, 
obviously, a panel of wonderful witnesses. We have got 
questions, but I just want to make sure that we don't lose 
Members, because I know that we are going to be leaving for the 
weekend, and I want to make sure that we keep everyone here as 
long as we can.
    Your written testimony will be included in the record for 
the hearing, and when all six of you have completed your 
testimony, we will begin with questions, which will be, again, 
for five minute increments.
    So, Dr. MacCracken, if we can begin with you, please.

    STATEMENT OF DR. MICHAEL C. MACCRACKEN, PRESIDENT, THE 
   INTERNATIONAL ASSOCIATION OF METEOROLOGY AND ATMOSPHERIC 
SCIENCES OF THE INTERNATIONAL UNION OF GEODESY AND GEOPHYSICS; 
CHIEF SCIENTIST FOR CLIMATE CHANGE PROGRAMS, CLIMATE INSTITUTE, 
                         WASHINGTON, DC

    Dr. MacCracken. Thank you, Madam Chairman.
    I was asked to address two questions during my testimony, 
having to do with lessons learned during the National 
Assessment that took place, and what are some specific tasks 
necessary to get an ongoing assessment process.
    I also want to just say a few words about the program in 
general. I think the USGCRP is a very unique activity. It is 
trying to get agencies working together. I came in as the first 
Executive Director of the office to get the ten agencies really 
participating and working together, and my job description said 
and you don't have control of the money, so you have to make it 
happen, which is by driving it with ideas.
    I think a great deal was accomplished with some inspired 
leadership. There were international field programs that 
combined the activities of NASA with their satellites and NOAA 
with their aircraft and ships, and NSF with their capabilities, 
and so, we learned a lot about El Nino and the ozone hole and 
things.
    What has happened since, unfortunately, even though there 
are more and more questions coming up, the budget has been 
dropping. The proposal, I think, for Fiscal 2008 is about 25 
percent below in sort of even dollars what it was in the 1990s, 
even though there are more questions. And so, we are ending up 
doing less. So, I think to get the program going, what is 
needed is some highly qualified leadership to get the funding 
up again, and then, to work hard on the assessment activity.
    So, for the assessment activity, what I brought here, and 
what the Chairwoman commented upon, was the reports that came 
out from the National Assessment, which you have heard. There 
aren't many places where they are compiled. This is one of the 
few sets. But what was talked about, and what is sometimes 
talked about in the bill is the report that is delivered to 
Congress, and that turned out to be this report, and then, 
there was a supporting thicker report.
    But at the same time, what was going on was a process all 
around the country. There were sort of 20 regions that held 
workshops. There were five sectoral studies, and so, each of 
those was an ongoing activity, and so, there is Alaska, and 
there is health, and there were forests, and Great Lakes, and a 
whole host of activities going on there, because global changes 
start at the global scale. When you look at it, how we are 
changing the global atmosphere, impacts start at the local 
scale, and you just have to have the local people involved.
    There was an EPA assessment that went on in the late '80s, 
where they tried to basically study five representative 
regions, one of them being California, where I was. They 
appointed a panel of, I think, 12 or 13 scientists. It had one 
Californian on it. It got no attention whatsoever in the state. 
What happened in this last assessment go round was the activity 
was based at the University of California Santa Barbara, and 
when they had the workshop, they had a majority of members of 
the Energy Commission there, the California Air Resources 
Board, and a whole bunch of other groups. They involved local 
people. And California's effort took off, even though there 
wasn't enough money provided to them to, in the end, publish 
their report. They got so many people going, and so many people 
interested in the critical problems.
    So, I think it is really important to do that. There are 
just all kinds of people who are interested. Planners want to 
know about what is going to happen to the likelihood of floods. 
Farmers and hunters and fishermen in South Carolina want to 
know what is going to happen to the temperature of the streams, 
or the state of the forests, and if they are going to dry out 
so much that you get fires. There is just a lot of information 
that can be provided.
    Indeed, there are uncertainties, and there is a lot more 
research to be done, but there is an awful lot of guidance that 
one can give with respect to these activities. And so, in the 
testimony, I go through a number of steps that I think need to 
be taken. One is to be make sure that you call not just for a 
report for Congress, but for a capability for the country to 
address and face up to the impacts of the issue. Insist, as you 
do, that there is stakeholder involvement. Insist, as you do, 
to use the words ``global change'' instead of ``climate 
change.'' That is a subtle difference, but it means you are 
really going to do climate change in the context of everything 
else, not just do climate change all by itself, which isn't 
particularly useful. Do consider mitigation and adaptation.
    I think it is going to be important to find a way to 
provide funding that goes for assessment. As we were dealing 
with the agencies, it was hard for them to consider assessment 
research, and yet, the definition in the Global Change Act and 
in this bill have assessment as under research. That doesn't 
work very well. Some of them legally say they can't do it, and 
so, I think you are really going to have to find a way to 
provide separate funding.
    I think there needed to be these strong regional 
components, and we tried to work up to 20. We ended up being 
able to fund 15, and couldn't find funding for sort of the 
other five, that we thought covered the country. And there were 
a couple of reports, like the one in the Southwest for Native 
peoples, that the report got all done, but there was never 
funding around to publish it. It was very unfortunate at the 
end.
    So, we need, I think, some regional centers. I think it is 
also important to look nationally, and look at some sectors, so 
we looked at agriculture and water resources and human health, 
and coasts, and forests. And so, there are those, but there are 
a whole host of additional ones to be looking at, the rural 
communities, extreme events, and other things. And then have an 
international, I mean an independent synthesis that can be 
done, so--the signal is down there, but----
    Let me just conclude by saying I think a lot can be done in 
a year, but you can't get all the way there in a year, and if 
you try and do it all in a year, you won't be doing the kind of 
effort that you really need to have happen.
    [The prepared statement of Dr. MacCracken follows:]

              Prepared Statement of Michael C. MacCracken

Introduction

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to participate in today's hearing on H.R. 906, the Global 
Change Research and Data Management Act of 2007. I am honored to 
testify before you today in both my capacity, since 2002, as Chief 
Scientist for Climate Change Programs at the Climate Institute\1\ here 
in Washington, D.C., and as the executive director of the Office of the 
U. S. Global Change Research Program (USGCRP) from 1993 to 1997 and of 
USGCRP's National Assessment Coordination Office from 1997-2001.\2\ My 
detail as senior scientist with the Office of the USGCRP as senior 
scientist for climate change concluded in September 2002.
---------------------------------------------------------------------------
    \1\ The Climate Institute is a non-partisan, non-governmental 
501(c)(3) organization that was established under the leadership of 
John Topping in 1986 to heighten national and international awareness 
of climate change and to identify practical ways for dealing with it, 
both through preparing for and responding to the ongoing and 
prospective changes in climate and by reducing emissions and slowing 
the long-term rate of change. These goals are pursued, among other 
ways, through preparation of papers, presentation of talks, and 
organization of symposia, conferences, roundtables, and special 
briefings. These have been carried out not only in the U.S., but also 
in Canada, Australia, Japan, Europe, and more than two-dozen developing 
countries. To accomplish this, the Climate Institute taps into its vast 
network of experts and alliances in the U.S. and internationally. In 
all of these efforts, the Institute strives to be a source of objective 
and reliable information, promoting global climate protection through 
practical and cooperative approaches. The Board of Directors, to which 
I was recently elected, governs the activities of the Climate 
Institute. The Board, which is currently led by Mr. William Nitze, is 
made up of academic, business, environmental and scientific leaders 
from several nations, and the Institute's Board of Advisors, which 
plays a critical advisory role, is also very broadly based. The Climate 
Institute receives financial support from membership, private and 
corporate contributions, grants, and contractual services for 
government agencies, nonprofit organizations, and publication sales. My 
service with the Climate Institute has been on a volunteer basis.
    \2\ The U.S. Global Change Research Program (USGCRP) was 
established by the Global Change Research Act of 1990. Throughout my 
detail with the USGCRP, it was managed by the interagency Subcommittee 
on Global Change Research (SGCR), which was made up of research program 
managers from NSF, NASA, NOAA, DOE, EPA, DOI, USDA, HHS, DOD, and the 
Smithsonian Institution plus representatives from OSTP, OMB, and, on 
occasion, other offices of the Executive Office of the President. To 
facilitate interagency research cooperation, the SGCR established the 
Office of the USGCRP in 1993, which has continued since 2002 as the 
Office of the Climate Change Science Program. The National Assessment 
Coordination Office was created by the SGCR in 1997 and then closed in 
2001 at the end of the U.S. National Assessment.
---------------------------------------------------------------------------
    Prior to my detail from the University of California's Lawrence 
Livermore National Laboratory (LLNL) to the Office of the USGCRP in 
1993, my research at LLNL beginning in 1968 focused on computer 
simulation of climate change and air pollution. In addition, from 1974-
1987 I served as deputy division leader and from 1987-1993 as division 
leader of LLNL's Atmospheric and Geophysical Sciences Division. While 
at LLNL, I gained valuable experience in facilitating interagency 
cooperation by leading or co-leading cooperative research programs 
among the DOE national laboratories and across the campuses of the 
University of California. In none of these cases, including with the 
Office of the USGCRP and NACO, did I have control of the funding to 
force cooperation; leadership, in each case, was primarily through the 
offering of ideas that would attract the various participants to work 
cooperatively together. A biographical sketch is appended to this 
statement.
    In inviting me to testify, I was asked to address two questions:

        1.  What lessons did you learn from your experience as 
        Executive Director of the National Assessment Coordination 
        Office of the U.S. Global Change Research Program about the 
        importance of regional, State and local participation of a 
        National Assessment?

        2.  What are the specific tasks necessary to develop an on-
        going dynamic National Assessment process and what financial 
        resources are needed to support them?

    In addressing these questions, I will also be drawing on my 
experiences participating in various ways in the assessment activities 
of the Intergovernmental Panel on Climate Change (IPCC), the Arctic 
Climate Impact Assessment, the City of Aspen, and related efforts.

Facilitating an Integrated National Research and Assessment Program on 
                    Global Change

    The Global Change Research Act of 1990 (GCRA90) is relatively 
unique in its establishment of an interagency research program; when 
effectively directed, the cooperative efforts led to very positive 
results and accomplishments. Growing out of interagency activities and 
planning beginning in about 1988 (with roots reaching back even 
further), establishment of the USGCRP energized cooperative interagency 
activities, with each agency bringing their strengths to the 
collaborative effort, thereby creating an impressive and comprehensive 
national and international research program. GCRA90's requirement to 
prepare an integrated research plan and OMB's requirement that the 
agencies collectively approve the budget increments of any particular 
agency served to encourage cooperation and maintain budget discipline 
in the early days of the program.
    During the 1990s, the collective interagency budget approached $2B 
a year, and significant research efforts could be accomplished. For 
example, international field programs that combined the satellite and 
other capabilities of NASA, the aircraft and ship capabilities of NOAA, 
the university research and field experiment capabilities of NSF, and 
similar contributions from other countries led to much more 
comprehensive and complete data sets for analysis by scientists in all 
nations, thus promoting, at lower cost to the US, more complete and 
faster insight into such phenomena as the El Nino, the ozone hole, 
oceanic uptake of carbon, and more. Improvement of climate models and 
transfer of such models to the new generations of massively parallel 
computers was accelerated by combining the strengths of DOE and its 
laboratories with the modeling expertise of NSF, NASA, and NOAA--each 
effort prompting the others to do better. The sharing of data and model 
results allowed other agencies to draw on the results for studies of 
ecosystem change, hydrology, agriculture, and more. There were many 
other examples that, when the overall effort was adequately funded, 
significantly advanced scientific understanding in ways that have and 
can continue to benefit society.
    With more and more scientific questions coming up, however, the 
budget was held to roughly level dollars starting in the mid 1990s as a 
step to bring the overall budget deficit under control, leaving only 
the scientific benefits of working together in win-win ways and 
Executive Office encouragement to drive interagency cooperation. Even 
though budgets were tight, the agencies recognized the importance of 
having an assessment activity and jointly sponsored the U.S. National 
Assessment from 1997-2001.
    With the GCRP budget becoming significantly smaller\3\ (e.g., 
within EPA and NASA), with the erosionary effects of inflation, with 
the significance of the decrease being somewhat hidden by changing the 
set of ongoing agency activities included in the USGCRP budget (e.g., 
within NOAA), and with the CCSP having less knowledgeable and 
inspirational leadership, much less is seeming to be accomplished. 
Scientists are spending far too much of their time writing proposals, 
fewer young scientists are being supported, the observation program is 
deteriorating, agencies have been very slow to get activities going on 
important new questions (e.g., research on hurricanes and their 
relationship to climate change), the U.S. is falling behind the rest of 
the world and not doing its share in supporting cooperative 
international research programs, and the overall national assessment 
activity is far below what it was and should be given the situation 
being faced by the American public. While there is indeed still much 
research to be done (enumerated most recently in the Strategic Plan for 
the U.S. Climate Change Science Program completed in 2003), and I 
certainly support sustaining a strong interagency research program with 
greater funding, just listing what should be done is not enough.
---------------------------------------------------------------------------
    \3\ See their enumeration of the budget at http://
www.climatescience.gov/infosheets/highlight2/default.htm#funding and 
http://www.usgcrp.gov/usgcrp/budgets/funding1989-2008byagency.htm
---------------------------------------------------------------------------
    In addition, the Strategic Plan did not even call for a 
comprehensive decision support program, which is both very 
disappointing and a real disservice to those who are experiencing 
climate change now and who will be exposed to much greater change in 
years to come. The Administration is not even providing sufficient 
support to investigate the uncertainties that it claims are important, 
much less the many areas deemed important by the national and 
international scientific community and the public, just at a time when 
the pace of climate change and its impacts are accelerating.
    The main change that is needed, in my view, is highly qualified 
leadership, restoration of the very strong research effort that had 
been going on, and a significant commitment to openly, forthrightly, 
and expeditiously provide the best possible information to the American 
public through a comprehensive decision support and assessment 
activity. Interagency cooperation can be encouraged by ensuring each 
agency has a strong research program and then, for interagency 
activities, allocating responsibilities across the agencies, with each 
taking on a proportional share of the tasks that it can capably 
undertake and fund. Shared responsibility has the effect of ensuring a 
real stake in the collective effort by all of the agencies. Although I 
have been disappointed in OSTP's leadership for the past few years, my 
recommendation is nonetheless maintain responsibility for the 
interagency coordination under OSTP and the science adviser, and to 
keep the research on climate change science separate from that on 
energy technologies to avoid potential biases and to ensure effective 
management.

Building a Useful and Effective National Assessment Capability

    Assessments are too often thought of only as reports, as, for 
example, the assessment reports of the Intergovernmental Panel on 
Climate Change (IPCC), the WMO and UNEP reports on Stratospheric Ozone, 
the Arctic Climate Impact Assessment (ACIA), and the US National 
Assessment. Indeed, GCRA90 and H.R. 906 both focus on the delivery of a 
report to Congress.
    For the assessment activity to be useful, however, it has been 
widely recognized for some time that a much grander vision and process 
is needed, both in terms of the set of stakeholders that are included 
and in establishing the type and scope of activities that need to be 
undertaken. While provision of information to Congress to support 
policy development is certainly important, preparing for and adapting 
and responding to the impacts of climate change must start locally and 
regionally--each region is distinct, and each type of impact manifests 
itself in different ways in different places and for different sectors 
of the economy. While there are certainly some areas where national 
policy steps are warranted, there will be many where individuals, 
public and private sector organizations, local communities, states, and 
regions will need to respond. USGCRP activities need to serve all of 
these scales and stakeholders, not dictating what policies to follow, 
but providing information and capabilities needed by those experiencing 
the impacts so that they can prepare for and adapt and respond to 
future conditions.
    Local planners will want information on likely changes in 
precipitation amount and flooding rains; farmers and farm cooperatives 
will want information on changes in season length and temperature, not 
just for their own farms, but for those of their local and distant 
competitors; coastal zone managers will want information on likely 
changes in sea level, storms, estuarine temperatures, and more; water 
resource managers will want information on likely changes in snowpack 
and runoff, and the chance of floods and drought; community health 
planners will want information on changes in location of freezing 
conditions and the frequency of extreme heat waves; industry will want 
information on changes in extremes that might affect their businesses 
and shipping; those preparing environmental impact statements will want 
information on the degree of change in a particular location; those 
doing economic analyses will want information across the region, and 
lots more.
    In addition to providing information for stakeholders, the program 
needs to have an associated outreach and educational activity, helping 
to inform people about the changes ahead so that they can make 
decisions that will be robust over time and not lead to wasteful 
investments. As for other parts of the economy and society, 
information, even somewhat uncertain information, can be very valuable. 
In that Congress created the Global Change Research Act as an 
application-oriented research effort, I believe that the USGCRP has an 
obligation to make information available as it is produced, and not 
hold back such information until the changes being studied have 
occurred or the very high degree of confidence that the scientific 
community ultimately strives for has been obtained.

Reflections on the U.S. National Assessment Experience (1997-2001)

    Over the four-year period, significant progress was made in moving 
toward creating a broad and comprehensive National Assessment 
capability. We realized that we needed to create opportunities for real 
people (referred to collectively as stakeholders) to meet with 
scientists and specialists to learn about and discuss the information 
that the research is providing, have the opportunity to ask questions 
and to contribute their detailed knowledge and expertise, get 
information in the form and type that they need to make their own 
analyses, and to make their own judgments about whether the degree of 
confidence and uncertainty that scientists have in this information 
will make it useful to them.
    Certainly, a top-down effort by USGCRP could set the process in 
motion by helping to sponsor meetings and by carrying out illustrative 
analyses of the larger-scale impacts. However, top-down reports tend to 
lack the detailed, local knowledge of an area and generally 
inadequately treat the social, economic, and demographic issues that 
would be expected to make a climate impact report of real relevance to 
city and regional planners; reports about local issues published by 
agencies in Washington are just not perceived to have the credibility 
of reports coming from local experts. Quite clearly, strong bottom-up 
regional efforts based at local academic institutions are much more 
credible than national level efforts, especially when analyses are done 
at local to regional scales by local and regional experts.
    A second approach to evaluating impacts is to look nationally, or 
even internationally where appropriate, at particular economic or 
resource sectors. For many sectors, national policies exist and 
commercial entities are very active or interested, making a national 
perspective most appropriate. As a result, the National Assessment set 
up a series of sectoral studies. Because many of those in industry 
consider their ability to adapt and prepare for climatic fluctuations 
and changes a component of their proprietary business information, it 
also became clear that, for some types of sectoral studies, the 
assessment would need to be left to the private sector (and in the 
field of weather-related issues, there is already a strong private 
sector capability). Industry participants might well want to receive 
information, but did not want to have to explain their requests.
    So, building on experiences from already ongoing efforts by NOAA to 
help water resource managers and others in the Pacific Northwest make 
use of the improving predictability of El Nino and La Nina events, the 
SGCR decided to create an ongoing, nationally distributed assessment 
capability, not only to prepare the periodic national-level report, but 
to also provide ongoing decision support and assessment capabilities to 
both regional and sectoral stakeholders.
    During 1997 and 1998, the USGCRP agencies sponsored 20 primarily 
university-based teams across the country to organize workshops that 
would provide an opportunity for the scientific and stakeholder 
communities to come together.\4\ Guidance was also given to make sure 
that a broad array of stakeholders were invited, and the OSTP Director 
sent letters to each governor and each Member of Congress from the area 
inviting their participation. Each workshop posed a set of four 
questions\5\ as a way of seeking to identify the most important impacts 
likely to affect each particular region.
---------------------------------------------------------------------------
    \4\ Workshops were held covering the following areas: New England 
and Upstate New York, Metropolitan East Coast, Mid-Atlantic, Central 
and Southern Appalachians, Southeast, South Atlantic Coast and 
Caribbean, Great Lakes, Eastern Midwest, Northern Great Plains, Central 
Great Plains, Southern Great Plains, Rocky Mountains/Great Basin, 
Southwest-Rio Grande Basin, Southwest-Colorado River Basin, California, 
Pacific Northwest, Alaska, Pacific Islands, and Native Peoples/Native 
Homelands.
    \5\ 1. What are the long-term environmental and resource problems 
now faced in the region? 2. How would climate change amplify or 
moderate them or introduce new stresses? 3. What further information is 
needed to address these questions? 4. What win-win strategies might 
help to address the problems being faced?
---------------------------------------------------------------------------
    Based on the issues identified and the capabilities for analyzing 
and summarizing the likely impacts in these areas, fifteen of the 
groups were funded to conduct regional assessments,\6\ and of these, 
all but three completed their studies over the next couple of years 
and, in addition to significant outreach to regional stakeholders, 
published reports summarizing likely impacts.\7\
---------------------------------------------------------------------------
    \6\ The five areas for which proposals and funding did not come 
together were: Central and Southern Appalachians, Eastern Midwest, 
South Atlantic Coast and Caribbean, Southern Great Plains, and 
Southwest-Rio Grande, although some additional joint study did go on 
for the last two areas. The Native People/Native Homelands workshop led 
to a proposal covering only the Southwest.
    \7\ While much was accomplished in the three regions that did not 
ultimately publish assessment reports, a shortfall in funds did prevent 
the publication of the draft reports for the California and Native 
Peoples-Southwest regions. The Northern Great Plains region carried out 
its outreach activities via other means than publishing a hard-copy 
report.
---------------------------------------------------------------------------
    Following a national-level workshop in the fall of 1997 and in 
response to guidance from the director of the OSTP regarding 
fulfillment of the GCRA90 requirement for a national assessment, the 
USGCRP agencies established the National Assessment Synthesis Team 
(NAST) as a federal advisory committee in early 1998. Working with the 
agencies, NAST organized sectoral assessment teams covering 
agriculture, forests, human health, water resources, and coastal area 
and marine resources. Each of the five sectoral teams was based at a 
university and co-chaired by a university and government laboratory 
scientist. While it was recognized that there were additional sectoral 
topics meriting coverage (and even mentioned specifically in GCRA90), 
the particular choices were made because it was recognized that other 
sectoral topics would likely depend on the results from these areas 
(e.g., assessing impacts on the energy sector would require estimates 
of changes in water resources). In addition, because the intent was 
that assessment activities would be ongoing, holding off for a few 
years seemed prudent, especially because the most important aspects of 
these issues would be getting covered in the regional assessments.
    To provide the technical information needed to underpin the 
regional, sectoral, and national assessments, the USGCRP agencies also 
funded initial, but quite limited, activities relating to projection of 
climate, vegetation cover, economic development, and technology 
development. In addition, to provide overall coordination and 
facilitation among the regions, sectors, agencies and NAST, the SGCR 
established the National Assessment Coordination Office (NACO). NACO's 
activities included providing staff support to the NAST, organizing 
annual meetings of leaders of all the assessment teams, issuing 
newsletters, maintaining a Web site, and, especially, understanding and 
communicating the interests and concerns among the groups and with the 
agencies which, for legal and contractual reasons, were in a number of 
cases unable to work directly with the groups they were sponsoring.
    While a great deal was accomplished, the most challenging problem 
was funding. Fulfilling the legal requirement for a report to Congress 
and supporting such a broad assessment activity was really an unfunded 
mandate. There was not time, and little likelihood, to move a request 
for sufficient funding for each agency through the OMB and 
Congressional budget process, especially to cover activities occurring 
over a number of years. There was also some question about whether 
assessment really fits within the definition of research that prevails 
in some agencies. To bypass the need for coordinated interagency 
funding approval, the assessment activity was subdivided into about 30 
components (e.g., support a regional assessment, support a sectoral 
assessment, etc.) and each of the eight active agencies was asked to 
find the resources to assume responsibility for the several specific 
tasks most closely related to their mission (e.g., USDA supported the 
agriculture and forest sectors, etc.). We ended up getting about 25 of 
the 30 components funded. A key issue for future assessments will be 
addressing this problem, because the unevenness of the funding that 
different agencies could and did make available led to unevenness, 
discontent, bewilderment, and even jealousy across the participating 
groups.
    Despite the complexity and problems associated with the overall 
effort, a great deal was accomplished. The overall effort, which 
entailed planning workshops, building of stakeholder interfaces, 
regional and sectoral analyses and studies, national synthesis, and, 
for all reports, extensive review, took four years. There was a 
significant level of coordination achieved, both through exchange of 
information among teams at workshops and e-mail, and with some 
direction from the NAST. Most of the reports (and a lot of related 
publications) were completed and distributed in 1999 and 2000 (regional 
reports by the regions; sectoral by the sectoral groups; and the 
national reports through SGCR and OSTP). The reports remain available 
over the Web at http://www.usgcrp.gov/usgcrp/nacc/default.htm, and the 
national level reports are also available from Cambridge University 
Press.
    Except for the relatively few regions and sectors where new funding 
was provided (e.g., in California, where the findings of the regional 
assessment raised such interest that the state established its own 
program), these reports remain today the most comprehensive set of 
information about the likely impacts of climate change on the U.S. In 
addition, the National Assessment set of activities served as the 
primary basis for the summary of impacts that was included in the 
IPCC's chapter on North America in its Third Assessment Report, in the 
National Academy of Science's 2001 report prepared in response to a 
series of questions from President Bush, and in the impacts and 
adaptation chapter of the U.S. Climate Action Report--2002, which, 
after word-by-word approval by all the key government agencies and the 
Executive Office of the President, was submitted in late May 2002 as 
the official U.S. Government communication under the UN Framework 
Convention on Climate Change that the U.S. ratified in 1992. Quite 
clearly, the National Assessment process from 1997-2001 served many 
purposes, from local and regional to national and international.

Rebuilding a National Assessment Capability

    As mentioned above, it was envisioned that an integrated regional-
sectoral-national assessment activity would continue on well beyond 
2001, building on progress spurred by the ongoing research program, 
interacting continuously with stakeholders, and periodically issuing 
reports that represented snapshots of understanding at that point. 
Instead, the Climate Change Science Program, which came to encompass 
the USGCRP, chose to focus its resources primarily on further reducing 
uncertainties relating to the science of climate change rather than 
building capabilities for evaluating the implications of climate change 
for people and the environment. There is indeed much research to be 
done (on climate extremes, on hurricanes, on ecosystem responses, and 
in other areas listed in the CCSP research strategy\8\ ), and I 
certainly support additional funds for addressing the major scientific 
uncertainties, but much is reasonably well understood, and I believe it 
is particularly unfortunate for the American public (and also in 
violation of the GCRA90) to not also be sponsoring a strong national 
assessment activity. Unfortunately, except for a relatively small 
number of ongoing activities, the focus of which has in some cases 
moved away from climate change, most of the regional, sectoral, and 
national assessment capabilities created for the National Assessment 
have largely been discontinued. As a result, capabilities will have to 
be rebuilt if our nation is going to have available the information 
needed to effectively and economically prepare for and adapt to the 
changes that lie ahead. If this is not done, the progress being made 
through the scientific research will simply not be effectively 
communicated to and usable by most stakeholders.
---------------------------------------------------------------------------
    \8\ It is not, of course, enough to list the scientific question in 
the plan. What has to be done is to have an effective research program 
to address the key questions, and this is not happening across the 
various elements, especially in aspects critical to identifying and 
evaluating the impacts of climate change.
---------------------------------------------------------------------------
    To rebuild and expand the national assessment capability so that it 
is providing information across the country of the kind and quality 
that California is putting together to address key climate impacts on 
its citizens, infrastructure, and economy, several steps need to be 
taken:

        1.  Call for a national assessment capability: It needs to be 
        made explicit in H.R. 906 that the assessment process is more 
        than preparation of a national-level report to Congress. 
        Indeed, it needs to be stated that what is needed is a widely 
        distributed national assessment capability that can benefit 
        private and public sector organizations, local and State 
        governments, and the public at large. As explained below, this 
        effort needs to have regional, sectoral, and national 
        components.

        2.  Ensure a broad scope: GCRA90 and H.R. 906 both properly 
        call for assessments of global change, not just climate change; 
        that is, in addition to dealing with long-term climate change, 
        the stated intent is to deal with issues that include, for 
        example, the individual and coupled impacts of changes in 
        stratospheric ozone, large-scale changes in atmospheric 
        chemistry, ocean acidification, deforestation and 
        desertification, shifts in species ranges and loss of 
        biodiversity, changes in population and demand for water and 
        other ecosystem services, natural influences such as major 
        volcanic eruptions, and more. For the first National 
        Assessment, we used the threat of ``climate change'' as a means 
        to initiate consideration of broader concerns over global 
        change and sustainability. This was accomplished by having the 
        first discussion question inquire about other large-scale, 
        long-term issues, influences, and trends (e.g., the overdrawing 
        of underground aquifers in some regions). The second question 
        then inquired about how climate change might exacerbate or 
        ameliorate the consequences of the various factors leading 
        change, or how it might introduce new stresses or 
        opportunities. The assessment activity needs to avoid 
        considering climate change in the absence of how society and 
        the environment are otherwise changing; they will only be 
        useful to real people if done in the context of all types of 
        changes that are going on. Fully addressing global change and 
        sustainability will likely to require even broader interagency 
        cooperation and budget coordination than at present.

        3.  Allow coupled consideration of mitigation and adaptation: 
        GCRA90 separated mitigation from adaptation, yet it became 
        clear during the National Assessment that they are coupled in 
        certain ways. Changes in water resources will affect the 
        potential for generation of biomass; changes in climate may 
        well affect wind power resources and demand for energy; changes 
        in land cover for energy generation will affect surface albedo, 
        dust loading, and even air pollution; changes in location of 
        icing could affect transmission lines; etc. Certainly, the 
        technology research programs are best kept separate, but 
        choices regarding particularly renewable energy technologies 
        and their implications need to be considered jointly with 
        issues of impacts and adaptation.

        4.  Provide separate funding: Whether at NSF where research is 
        defined as something new or at USDA where land-grant funds are 
        allocated for other purposes and seemingly can't be diverted, 
        borrowing and begging from the research budgets of various 
        agencies did not work well, having to struggle to overcome 
        long-standing agency and recipient relationships. At the same 
        time, putting all of the additional funds in one agency would 
        tend to reduce overall credibility, as was the perception when 
        EPA alone was funding early assessment activities in the late 
        1980s. For credibility, multiple agencies, each with their 
        particular interests and capabilities, need to share the 
        responsibilities and ownership of the assessment activities.

        5.  Provide for national baseline information: Regional, 
        sectoral, and national assessments will all require developing 
        a set of scenarios of projected changes in climate, ecosystems, 
        demographics, technology, economics, and energy technologies. A 
        problem with the first National Assessment was that these 
        activities were inadequately supported and got started too late 
        to really get the information to assessment teams when it was 
        needed. Each of these efforts can be started up quickly, 
        perhaps most effectively under the oversight of national panels 
        set up under the auspices of a relevant professional society or 
        foundation. Major data sets that are generated can likely best 
        be maintained and made available through, for example, national 
        or agency laboratories or centers. There is also a need for 
        research funding to develop the capability for generating much 
        more useful projections and scenarios, and to find the means to 
        allow for consideration of societal evolution, alternative 
        policies, etc. This will require a coupling of the assessment 
        and research planning efforts. The assessment component of this 
        effort is likely to require several million dollars per year, 
        especially to support the running of regional models and the 
        involvement of the social science community.

        6.  Generalize the time horizon: GCRA90 called for looking 25 
        and 100 years ahead. This was too limiting. Many stakeholders 
        want to have projections for only 10 years in the future, even 
        though scientists would say, and the stakeholders understand, 
        that natural variability and events such as volcanic eruptions 
        could cause fluctuations larger than the expected changes over 
        these short time scales. The reason even limited confidence 
        estimates can be important is that businesses are not dependent 
        on conditions being exactly at the expected mean value; for 
        reasons of competitive edge and to avoid government regulation 
        if failure happens too often, resource-related businesses are 
        typically able to flexibly adapt to conditions that span 90 
        percent or more of the possible range of monthly to seasonal 
        climatic variations (e.g., have enough capacity and reserves to 
        be able to ensure enough natural gas or heating oil for all but 
        the very coldest years, after which they might need to resort 
        to significant price increases or extra transport of fuel, or 
        to pleas to the public for conservation, or, in the direst 
        situations, not meeting the demand). In that many businesses 
        already have developed an adaptive capability to deal with a 
        reasonable range of extremes, a projected trend in the mean can 
        be used to plan how best to plan for changes in the likelihood 
        of extreme events (e.g., to ensure sufficient electric power 
        during heat waves). For other groups, for example those 
        planning buildings or developing new paving materials, 
        information out to 50 years is more important. The assessment 
        activity therefore needs to recognize that different groups are 
        likely to need widely divergent information, from changes in 
        the mean to changes in the extremes.

        7.  Insist on stakeholder involvement and an applications-
        oriented effort: It really needs to be made clear that the 
        national assessment activity is an applications-oriented, 
        mission-directed part of the overall USGCRP. Too often, 
        assessments are being done by pulling researchers away from 
        their research. That can be fine for a short time and for 
        scientific review papers, but that is not how this part of the 
        program should be conducted. The assessment effort needs to be 
        designed to maintain an ongoing interface with stakeholders, 
        and to develop the tools and information that stakeholders 
        need, taking account of the special knowledge and situations 
        that are being analyzed. As such, the activity needs to have a 
        philosophy and operating approach that is akin to NOAA's 
        existing regional climate centers. While new information and 
        insights will and can be generated by the assessment process, 
        this effort needs to be informed by research, but driven by 
        stakeholders.

        8.  Insist on and support a network of regional decision-
        support centers: A wide range of impacts that matter happen 
        where people live. As one approach to estimating impacts, it is 
        essential to have a place-based focus in the assessment 
        process; those who best know and can relate to a region are 
        those who live and do their work there. The National Assessment 
        struggled a lot with the question of what a region is, and 
        ended up with ones of varying size and rationale.\9\ The most 
        important considerations ended up being that the regions 
        included people facing similar problems and that the 
        participants in the region were able to get together for one-
        day information, coordination, and outreach meetings (getting 
        stakeholders to devote more than one day is very difficult, 
        given the long-term nature of the benefit they can expect). For 
        the first National Assessment activity, keeping in mind that 
        the U.S. is responsible for islands in the Caribbean and 
        Pacific, it seemed that 20 regions was about the right number.
---------------------------------------------------------------------------
    \9\ We considered trying to subdivide the U.S. by watershed, by 
agency defined administrative region, by political boundary, and more. 
In the end, recalling the book The Nine Nations of North America that 
focuses on the common interests and values of those in particular 
areas, and even considering whether the boundaries of major football 
conferences might help define this, we ended up using no single 
criterion and allowed fuzzy boundaries for regions.

              For the National Assessment, the USGCRP agencies were 
        generally only able to provide enough funding to get a team 
        established that drew members from one university. A number of 
        the regions were able to reach out and build broader teams by 
        attracting separately supported participants from land and sea 
        grant programs, from government laboratories, and simply 
        because of the uniqueness of this first effort; on-going 
        efforts, however, are going to require more substantial support 
        for each center (likely of order $1-2M per year per region--and 
---------------------------------------------------------------------------
        if regional modeling is involved, substantially more).

              Ideally, I believe that regional centers (or virtual 
        centers or cooperative regional programs) are needed that draw 
        on capabilities from multiple universities, laboratories, 
        stakeholder organizations, and other expertise in a region, 
        thereby creating a regionalized science, assessment, and 
        decision-support capability. Such centers (or capabilities) 
        need to be able to do more than just review existing scientific 
        literature. They need to be able to carry out and analyze the 
        large-scale changes that characterize and drive global and 
        national change, and then apply this large-scale information in 
        local and regional analyses using the available and calibrated 
        local and regional models.

              For the assessment and decision-support aspect of the 
        effort, the Regional Integrated Sciences Assessment (RISA) 
        teams that have been established by NOAA in a few regions 
        provide an example of what will be needed (and about which Dr. 
        Phil Mote will testify).\10\ The scope of capabilities, 
        however, will need to be strengthened so that these regional 
        centers can address issues of changes not only of climate, but 
        also for ecosystems, water resources, health, agriculture, 
        demographics, economic development, transportation, and more. 
        To achieve both breadth and flexibility as the set of issues 
        change, it may be best to establish a virtual regional center 
        rather than a specific center at a fixed location (California 
        seems to have been able to do this), or to base administrative 
        coordination efforts at a government laboratory or major center 
        within the region, with expertise distributed across a set of 
        universities.
---------------------------------------------------------------------------
    \10\ The four regional centers sponsored by DOE's National 
Institute for Climatic Change Research (NICCR) provide an example of 
how regional research can be focused and coordinated across several 
universities in a given region, although their core set of activities 
is not as focused as for the RISA centers.

              Getting such activities up and going across the country 
        will take at least a few years, but really does need to occur 
        so that all regions can have the types of information now 
        available for those few regions that are supported. Required 
        funding for roughly 20 regional activities likely needs to be 
---------------------------------------------------------------------------
        roughly $20M per year.

        9.  Call for and support sectoral assessments: While many of 
        the impacts are regionally distinctive, our nation is 
        interconnected in many ways. The National Assessment sponsored 
        five sectoral assessments, but recognized that many more were 
        needed and hoped that they would be initiated as part of 
        ongoing activities. There have been a few efforts to do this, 
        with, for example, EPA continuing to sponsor assessments of the 
        significance of climate change for human health and air and 
        water quality, and DOT for issues relating to climate and 
        transportation infrastructure and operation. But the CCSP's 
        efforts have so far been quite limited, forcing the initiation 
        of other modest and generally underfunded efforts (e.g., GAO, 
        at Congressional request, on Public Lands; a few environmental 
        groups for various regions; and a number of groups on defense 
        and national security implications); fully supported studies 
        are needed.

              Establishing on-going panels that are expected to 
        regularly update their analyses and assessments would likely 
        work best, with a sustained capability maintained in order to 
        be responsive to new questions, inquiries, and research 
        results. The overall objective would be to help those in each 
        sector have the information they need to cost effectively 
        prepare for and adapt to ongoing and prospective climatic and 
        environmental change.

              In addition to the areas for which initial assessments 
        were done, areas that are particularly worthy of study include 
        extreme events (e.g., hurricanes), energy, transportation, 
        infrastructure, business and commerce, trade and international 
        economics, recreation and tourism, wildlife and migrating 
        species, drylands and deserts, public parks and natural lands, 
        national security, international interconnections including 
        environmental refugees, urban areas, rural communities, and 
        more.

              To lead such efforts, partnerships between independent 
        professional or research organizations and government research 
        entities would likely be most effective, and might be a means 
        that would allow these teams to deal with proprietary 
        information and to develop recommendations on policies that 
        could help ease impacts and promote adaptation in the sector 
        analyzed. Funding for a set of such activities should likely 
        start at a level of about $5-10M.

        10.  National vulnerability assessment: The National Assessment 
        Synthesis Team (NAST) was established to provide high-level 
        direction for and integration across the distributed assessment 
        activities. NAST's responsibility included carrying out the 
        national synthesis by considering the larger picture, 
        encouraging learning and interaction across the separate 
        activities, and looking for gaps and weaknesses. Having NAST 
        organized as a federal advisory committee\11\ created 
        credibility and allowed for openness in its activities, 
        including in its review process.\12\ Insisting that such an 
        independent structure be used in the future is important for 
        many reasons, especially credibility; it is fine to ask for an 
        Administration evaluation of the resulting report, but the 
        vulnerability assessment should not be a formal Administration 
        or interagency document.
---------------------------------------------------------------------------
    \11\ Although NAST operated legally under the auspices of NSF, its 
functioning, oversight, and interactions were handled on an interagency 
basis, giving it broader independence and credibility. The independence 
also allowed each agency to separately consider NAST's findings and 
integrate them into their various roles and priorities. Based on 
experiences of trying to get all agencies to approve every word of 
official government reports, it is important that this not be required.
    \12\ Having a Federal Register review in addition to an extensive 
expert review served, in my view, a very useful role. However, an open 
review can also create difficulties because open release of a draft 
report tends to draw more media attention that release of the final 
findings.

               It is unclear whether an entity similar to NAST could be 
        sustained on a continuing basis using mainly volunteer members 
        who actually are also responsible for writing the report; quite 
        likely some support will be needed for member support, for 
        special studies, and for support staff. Finding a way to have 
        NAST's members be both widely representative of stakeholders 
        (including representing the interests of the agencies and 
        Congress) while also having the needed distribution and depth 
        of expertise will be a challenge. Funding required is likely 
---------------------------------------------------------------------------
        $2M per year, including support for national level meetings.

        11.  Overall Facilitation and Coordination: The SGCR 
        established the National Assessment Coordination Office (NACO) 
        to ensure effective coordination across all of the various 
        parts of the effort; this involved both a service and a subtle 
        independent voice supporting the overall vision for what is 
        wanted. Some sort of similar function will be needed for future 
        assessments, including especially promoting coordination, 
        cooperation, and exchange of information across the regions, 
        sectors, agencies, and national assessment team. For reasons of 
        credibility and acceptance, it will be important to find a way 
        to make sure this is done on an interagency basis.

        12.  Timing: GCRA90 and H.R. 906 both provide for an assessment 
        every four years. While periodic reports can be useful, they 
        can also be very disruptive to an ongoing assessment process if 
        every part of the process must focus on meeting the same 
        timelines. For this reason, rather than setting tight timelines 
        and a common, coordinated schedule for all parts of the process 
        as is done for IPCC assessments,\13\ NAST understood that, 
        while there was a need for the various regional and sectoral 
        teams to conduct some common analyses for national integration, 
        each region and each sector also needed some flexibility in 
        undertaking their own studies for their own audiences. Thus, 
        the national synthesis effort was set up as, essentially, a 
        ``snapshot'' at a particular time and focused on a particular 
        aspect of global change, initially climate change. We 
        envisioned there being future snapshots to catch up with other 
        aspects of the issue.
---------------------------------------------------------------------------
    \13\ In addition to requiring very tight coordination and 
essentially the superseding of all other activities and stakeholder 
interactions, scheduling all reports to finish simultaneously also has 
the unfortunate side effect of leading to peaks of attention on the 
issue every several years rather than promoting ongoing attention to 
the need to build adaptive capacity.

               For the future, I would think it useful to continue to 
        ask for periodic national-level reports--indeed, that the 
        needed report called for in the GCRA90 has not been provided is 
        very unfortunate. While there should not be an expectation that 
        each report will cover every aspect of global change, 
        coordination across successive reports should be done to ensure 
        that Congress really does periodically have an up-to-date 
        synthesis of the key national issues. To accomplish this, what 
        would be most useful, I would think, would be to receive, over 
        time, a series of reports from different perspectives and 
        taking different crosscuts of the issue--one time focused on 
        climate change, another time on ecosystem services and 
        vitality, another time on water resources and drought, etc., 
        and then, in addition, having an integrated executive 
        synthesis. Neither scientific understanding nor climate 
        normally changes fast enough to justify generating a full set 
        of reports in each region and sector on the same material every 
        four years; however, an up-to-date synthesis should always be 
---------------------------------------------------------------------------
        available.

        13.  Policy and technology evaluation for adaptation: Unlike 
        GCRA90, H.R. 906 calls in section 107(5) for the vulnerability 
        assessment to analyze ``the adoption rates of policies and 
        technologies available to reduce the vulnerability of society 
        to global change. . .'' This looks to me to be a useful new 
        component of a national-level assessment. Such analyses should 
        also be useful as a foundation for covering this subject in the 
        quadrennial submission of the U.S. Climate Action Report. The 
        National Assessment was not very successful at getting at the 
        issue of adaptation to various impacts; having a special 
        effort, at a reasonable funding level, would likely be very 
        helpful.

        14.  Communication, education and outreach program: While the 
        National Assessment planned a communication, education, and 
        outreach component, there were inadequate funds to do very 
        much. A key problem was that the agencies involved just did not 
        feel they were empowered to use funds designated for research 
        for these purposes, especially when the research funding was 
        very tight and there were many issues that needed to be 
        addressed. In some way, the legislation needs to call for such 
        activities and find ways to make sure that funding can be 
        provided, even if through the agency education allocations, 
        etc. Funding should be at $1-2M per year.

        15.  Policy assessment: Section 108 of H.R. 906 calls for a 
        policy assessment that documents current policies across the 
        country for both adaptation and mitigation, analyzes the 
        effectiveness of these policies, and identifies and evaluates 
        the need for additional policies. I would suggest that the 
        adaptation component of this assessment not related to the 
        emission or uptake of greenhouse gases be made part of the 
        national vulnerability assessment so as to make the remaining 
        effort more focused and manageable. With respect to the 
        mitigation assessment, to ensure credibility, it will be 
        important to have this assessment done by an independent panel 
        organized under the auspices of a university, foundation, or 
        research or policy center. Required funding is likely a few 
        million per year.

What Can Be Done in a Year?

    The fact that we have gone seven years without a full assessment 
would certainly seem a good reason to ask that the next assessment be 
completed in a year. However, insisting on such a rapid timetable could 
well lead to such an inadequate result that it would impair progress in 
getting to the comprehensive national capability that we need. Much, 
however, can be done in a year:

         A coordinated, interagency effort to prepare, review, and 
        publish a plan for a comprehensive national assessment;

         In that historical and scenario-based information will be 
        required on climate, land cover, demographics, technology, and 
        economics, steps should be required to initiate such efforts;

         The existing set of regionally based activities should be 
        expanded;

         Key agencies should be encouraged to initiate sectoral 
        assessment activities on a number of new topics; and

         Agency budgets should be augmented to provide for their 
        participation in a greatly expanded assessment activity.

    In my view, establishing the national capability over the next one 
to two years and then pushing for the next national-level synthesis 
within three years would be possible while assuring that useful 
information would be starting to get to stakeholders relatively 
quickly.
    In addition, the Administration should be called upon to complete 
the seriously overdue Climate Action Report, with the process including 
an adequate time for expert and public review of the draft and 
Congressional evaluation of the result.

                  Biography for Michael C. MacCracken

    Michael MacCracken has been Chief Scientist for Climate Change 
Programs with the Climate Institute in Washington, D.C., since 2002; he 
was also elected to its Board of Directors in 2006. Both of these 
positions are held on a volunteer basis.
    Dr. MacCracken received his B.S. in Engineering degree from 
Princeton University in 1964 and his Ph.D. degree in Applied Science 
from the University of California Davis/Livermore in 1968. His 
dissertation used a 2-D climate model to evaluate the plausibility of 
several hypotheses of the causes of ice ages. Following his graduate 
work, he joined the Physics Department of the University of 
California's Lawrence Livermore National Laboratory (LLNL) as an 
atmospheric physicist. His research in the ensuing 25 years included 
numerical modeling of various causes of climate change (including study 
of the potential climatic effects of greenhouse gases, volcanic 
aerosols, land-cover change, and nuclear war) and of factors affecting 
air quality (including photochemical pollution in the San Francisco Bay 
Area and sulfate air pollution in the northeastern United States). At 
LLNL, he also served as deputy division leader for atmospheric and 
geophysical sciences from 1974-1987 and then division leader from 1987-
1993.
    From 1993-2002, Dr. MacCracken was on assignment as senior global 
change scientist to the interagency Office of the U.S. Global Change 
Research Program (USGCRP) in Washington, D.C., also serving as its 
first Executive Director from 1993-1997. From 1997-2001, he served as 
Executive Director of the USGCRP's National Assessment Coordination 
Office, which facilitated and coordinated the efforts of 20 regional 
assessment teams, five sectoral teams, and the National Assessment 
Synthesis Team (which was constituted as a federal advisory committee) 
that prepared the national climate impact assessment report that was 
forwarded to the President and on to Congress in late 2000. During this 
period with the Office of the USGCRP, Dr. MacCracken also was a co-
author/contributing author for various chapters in the IPCC assessment 
reports and helped coordinate the official U.S. Government reviews of 
the second and third assessment reports of the Intergovernmental Panel 
on Climate Change.
    When Dr. MacCracken's assignment with the Office of the USGCRP 
concluded on September 30, 2002, he simultaneously retired from LLNL. 
In addition to his activities with the Climate Institute, he served on 
the integration team for the Arctic Climate Impact Assessment from 
2002-2004. Dr. MacCracken is also near completing a four-year term 
(2003-2007) as president of the International Association of 
Meteorology and Atmospheric Sciences (IAMAS), members of which are the 
national academies of science or their equivalent in about 50 nations. 
As president of IAMAS, Dr. MacCracken also serves on the executive 
committees of International Union of Geodesy and Geophysics (IUGG) and 
of the Scientific Committee for Oceanic Research (SCOR). From 2004 to 
2005, he served on a panel of the Scientific Committee on Problems in 
the Environment that prepared a report on what is known about the 
likelihood and consequences of an asteroid or comet impact, and from 
2004-2007 on a scientific expert group convened by Sigma Xi and the UN 
Foundation at the request of the UN's Commission on Sustainable 
Development to suggest the best measures for mitigating and adapting to 
global climate change (report available at http://
www.confrontingclimatechange.org).
    Dr. MacCracken is a fellow of the American Association for the 
Advancement of Science (AAAS) and a member of the American 
Meteorological Society, the Oceanography Society, and the American 
Geophysical Union, among other organizations. His affidavit relating 
global climate change and impacts on particular regions was recently 
cited favorably by Justice Stevens in his opinion in the recent 
decision in Massachusetts et al. versus EPA.

    Ms. Giffords. Thank you, Dr. MacCracken. Dr. Fellows, 
please.

 STATEMENT OF DR. JACK D. FELLOWS, VICE PRESIDENT, UNIVERSITY 
                CENTER FOR ATMOSPHERIC RESEARCH

    Dr. Fellows. Thank you, Madam Chairman, Chairwoman.
    I would like to thank the Subcommittee for the opportunity 
to testify on H.R. 906, in addition to my personal involvement 
in the creation of the U.S. Global Change Research Program. And 
I wanted to mention that UCAR, this consortium of 70 
universities, has been involved in this program for over 15 
years as well.
    The Subcommittee asked me to address the following 
questions: What are the major strengths and weaknesses of the 
U.S. Global Change Research Program? Are the current program 
funding levels adequate for adaptation and mitigation research 
and characterizing national vulnerability to climate change? 
And how can we ensure that resource managers and policy-makers' 
needs are met by the program?
    Let me start by describing the current U.S. Global Change 
Research Program strengths. The program has always been focused 
on producing the sound, scientific basis for policy-making. It 
has developed a unique interagency mechanism that provides a 
critical mass and focus for planning, and it is periodically 
peer reviewed. It has also made an effort to tie research and 
observational strategies to user needs, and it has clearly 
advanced the science over the last 17 years.
    Although it is not perfect--it does have some weakness--it 
has been impacted by political influences over the years, 
climate politics, overshadowed by other priorities. Over its 
history, its leaders have not always been given the support and 
tools to make the tough decisions and tradeoffs between program 
and agency priorities. It has been difficult at times to track 
the progress of the program, and it could clearly be more 
responsive to user needs.
    Let me turn to whether or not the program has adequate 
funding for adaptation and mitigation and characterizing 
national vulnerability. To discuss the budget, I will be 
referring to the Financial Year '07 ``Our Changing Planet'' 
document. It is a report that is produced by the program every 
year. That report covers the years Financial Year '05 to '07. 
During these years, the funding was roughly at about $2 billion 
a year. This is not easy to do a critical analysis of balance. 
Typically, National Research Council takes a couple years to do 
this.
    But the program does have five goals, and the first three 
are focused largely on scientific advancement, and the last two 
on adaptation, mitigation, and vulnerability analysis. Those 
last two goals represent about 25 to 30 percent of the current 
budget, and that is about $300 million annually.
    So, in my own judgment, I think that the balance is 
probably roughly right, and it actually includes a range of 
synthesis and assessment products that focus on national 
vulnerability, all the way from urban environments that we live 
in to even Arctic ice, and Mr. Inglis, I know you have traveled 
to the Antarctic, and you have experienced those ice 
conditions.
    One balance issue that I would like to point out is between 
Financial Year '05 and '07, the observational support actually 
decreased by almost 30 percent, from $500 million to about $700 
million. These were largely NASA science cuts due to other 
Administration priorities that have weakened the program, right 
at the time when we really need this kind of environmental 
observation. This reduction was actually highlighted in a 
recent National Research Council report that warned that our 
national environmental observation systems are at risk.
    Let me turn to whether or not we can ensure that resource 
managers and policy-makers' needs are being met in this 
program. The program has actually had a long history of 
engaging stakeholders. The program sponsored, in 2001, a 
National Assessment, of which researchers and stakeholders 
worked together, in 20 regions of the United States, to help 
identify user needs. Most of the synthesis and assessment 
products that came out of this effort continued to be an 
important part of the program, and involved the stakeholders.
    But despite all these efforts, I do think that H.R. 906 
would increase user input, and particularly, on the planning 
and priority setting of the program. So, in summary, I would 
say that H.R. 906 is very timely. It is an important piece of 
legislation. We have learned a lot since 1990 on how to run an 
interagency program, and the demand for this information is 
clearly increasing.
    If there is anything I would recommend about H.R. 906, it 
has to do with improving the interagency process itself. The 
bill does need to further highlight the priority of this 
program, so that it doesn't get diluted by other things. It is 
still a surprise to me that there is no aspect of this program 
included in the American Competitive Initiative, even though 
most of our economy is weather-sensitive or climate-sensitive.
    The bill also ought to identify, I think, a Director of 
this program and an Office of this program, and give them the 
tools and support and clout to be able to make the tough 
decisions, in terms of developing priorities.
    So, with that, I will conclude my remarks, Madam 
Chairwoman, and I would be happy to answer questions when we 
get to it.
    [The prepared statement of Dr. Fellows follows:]

                 Prepared Statement of Jack D. Fellows

Introduction

    My name is Dr. Jack D. Fellows and I submit this written testimony 
for the record of the House Subcommittee on Energy and Environment. I 
am the Vice President of Corporate Affairs at the University 
Corporation for Atmospheric Research (UCAR) in Boulder, Colorado. UCAR 
is a 70-university member consortium that manages and operates the 
National Center for Atmospheric Research and additional programs that 
support and extend the country's scientific and education capabilities 
related to weather and climate. The UCAR community has been a major 
contributor to the U.S. Global Change Research Program (USGCRP) for 
more than 15 years.
    In the invitation extended to me to participate in today's hearing 
on H.R. 906, the Global Change Research and Data Management Act of 
2007, I was asked to address the following questions:

        1.  What are the major strengths and weaknesses of the current 
        U.S. Global Change Research Program?

        2.  Are the current levels of funding for research to support 
        the development of adaptation practices, characterization of 
        ecosystem, community, and economic vulnerability, and 
        mitigation strategies adequate?

        3.  How can we best ensure that information needs of resources 
        managers and policy-makers at the State and local level are met 
        by the U.S. Global Change Research Program?

    In addition to addressing these three questions, I will also 
include my comments on how H.R. 906 can contribute to these three 
areas. My testimony today expresses my own views on H.R. 906 and is 
based on my own experiences and involvement in the USGCRP since its 
inception. I was a co-author of the very first USGCRP ``Our Changing 
Planet'' (OCP) report that accompanied the President's 1990 Budget and 
from my vantage point at the Office of Management and Budget (OMB) at 
that time, I assisted the Congress in its enactment of the Global 
Change Research Act of 1990 (P.L. 101-606), which codified the USGCRP 
into law.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While the USGCRP formally started in 1989, it actually began in 
early 1987 with some informal budget crosscuts when I was at the OMB. 
Those early crosscuts showed that over $1 billion of agency programs 
were related to global change type research. Shortly after these 
crosscuts, the Office of Science and Technology and OMB lead an 
interagency effort to improve the coordination of these programs. For 
over 15 years, the OCP reports have annually summarized the efforts of 
this critically important interagency research effort to better 
understand both the natural and human-induced changes occurring on our 
planet. The USGCRP has changed over the years both in research focus 
and structure. In 2001, the Bush Administration created the Climate 
Change Science Program (CCSP) that became the umbrella program for both 
the USGCRP and the Bush Administration's Climate Change Research 
Initiative. In July 2003, the Bush Administration released the 
``Strategic Plan for the U.S. Climate Change Science Program'' to guide 
the CCSP program. I will be using the FY07 OCP report for the basis of 
my testimony today. The USGCRP does not change radically from year to 
year and the FY07 OCP report is a particularly relevant report to 
address the three questions I have been asked to address.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


USGCRP Major Strengths and Weaknesses?

    My own view is that the USGCRP has been instrumental in improving 
our knowledge of how our planet works and how human activities impact 
it. That said, I believe the program does have exceptional strengths 
and a few things that must be addressed to realize the goals outlined 
in H.R. 906.
    The major strengths of the USGCRP include:

        1.  Its primary goal has not changed since its inception--to 
        provide a sound scientific basis for developing national and 
        international policy on global change issues.

        2.  It has provided an important interagency mechanism for 
        developing research priorities and budgets and coordinating the 
        program's implementation.

        3.  It has provided a ``critical mass'' and ``focal point'' 
        both within the federal and academic research and policy 
        communities to ensure this important science is discussed, 
        debated, reported, and remain a national priority.

        4.  It has periodically been independently reviewed (e.g., the 
        National Academy of Sciences) and been responsive to those 
        reviews.

        5.  It has tried to tie these interagency research efforts to 
        societal and user needs.

    The major weaknesses of the USGCRP include:

        1.  The program has been subject to rather substantial 
        political influences over the years (e.g., avoidance of certain 
        research areas, overshadowed by other Administration 
        priorities, disjointed congressional oversight, etc).

        2.  The interagency process has not always had the leadership 
        and clout to really ensure that the highest research priorities 
        are addressed or all agency contributions were included 
        (program priorities versus agency priorities).

        3.  It has not been as responsive to user needs as it could 
        have been.

        4.  There has been difficulty in tracking budget categories and 
        progress over time as cited in the 2006 GAO report entitled 
        ``Climate Change: Greater Clarity And Consistency Are Needed in 
        Reporting Federal Climate Change Funding.''

Are Current Funding Levels Adequate to Support Adaptation and 
                    Mitigation Research and Characterize Ecosystem, 
                    Community, and Economic Vulnerability?

    In FY07, the USGCRP had five key goal areas (see box). While some 
of the wording has changed over the years, these goals have been 
surprisingly stable for many years. That said, U.S. climate research 
has historically been focused on Goals 1-3, which have emphasized 
improvements in fundamental understanding of the climate systems, its 
driving forces, and the tools to make predictions about climate 
variability and change. As the science has improved and its 
applicability to societal needs has become more evident, the importance 
of Goals 4-5 have clearly increased. The FY07 report has pages and 
pages of highlights of progress in all these goal areas. Between, FY05-
07, the USGCRP funding has been between $1.7-1.8B. It is difficult to 
critically assess the specific program balance of such a large program. 
National Academy of Science panels have spent over a year doing this 
kind of analysis and even those reviews are largely done a high-level. 
That said, the CCSP Goals and Funding Percentage box above shows that 
the funding for Goals 4-5 are roughly 25-30 percent of the overall 
research funding (not including observations). I believe this is 
substantially up from the early years of the program, represents a 
reasonable balance in the program, and I expect will increase with time 
given policy and user demand for this type of research and information. 
It has just been in the last five years or so that the science has 
mature enough and the Goal 4-5 capacity capable enough to undertake the 
over $300 million annually being invested in the Goal 4-5 areas today. 
The USGCRP currently has 21 Synthesis and Assessment Products that are 
clearly applicable to national vulnerability, including weather and 
climate extremes, abrupt climate change, coastal sensitivity to sea 
level rise, ecosystem discontinuities, global change effects on 
agriculture, water resource, and energy production, human health 
impacts, best-practice in characterizing uncertainty, decision support 
systems for selected economic sectors and regions, adaptive management 
strategies, and many others.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    One issue I wish to point out is the USGCRP observations budget has 
dropped from over $772 million in FY05 to roughly $575 million in FY07 
(a 33 percent decrease). This is largely due to substantial reductions 
in NASA's science budget and a problem highlighted in the recent 
National Research Council's ``Earth Science and Application from Space: 
National Imperatives for the Next Decade and Beyond.'' This is an 
example where other Administration priorities have weakened the USGCRP 
program and interagency process. We should consider very carefully 
whether it is in our best interest to allow our observational 
capabilities to decline. I believe that in the very near future, 
policy-makers will begin to take actions to address the climate change 
issues documented in recent international reports. It would seem to me 
that observing capabilities will be even more important in the future 
as tools for policy-makers so that they can assess the impact of the 
important policy choices they make in response to climate change--which 
is why it is so hard to understand why this Administration has allowed 
such a steep decline in the funding of our observing capabilities. It 
is quite possible that some of the stakeholders input required in H.R. 
906 would also agree with the need to maintain these observational 
capabilities.

How can we best ensure that information needs of resources managers and 
                    policy-makers at the State and local level are met 
                    by the USGCRP?

    In 2001, the USGCRP sponsored the first U.S. National Assessment 
entitled ``Climate Change Impacts on the United States: the potential 
consequences of climate variability and change.'' This assessment was 
required by the Global Change Research Act of 1990 and involved teams 
of researchers and stakeholders working in 20 regions across the U.S. 
Much was learned from this first assessment in terms of national 
vulnerability, stakeholder needs, and how to best do assessments in the 
future. Many of the FY07 Synthesis and Assessment Products are 
outgrowths of this assessment and continue to solicit resource manager 
and policy-maker needs at all levels. So, the USGCRP continues to make 
substantial progress in making its investment relevant to stakeholders. 
But, is it enough given the urgency and political interest in this 
important science and policy issue? I'll try to address this in the 
next section of my testimony. I do believe that the type of reports and 
oversight recommended in H.R. 906 will go a long way to ensuring that 
resource managers and policy-makers needs are met by the USGCRP.

How H.R. 906 can help in these three areas?

    Overall I believe that H.R. 906 is a timely and important piece of 
legislation. We have learned a lot about climate science since 1990. 
Given increased awareness of the risks posed by climate change there is 
significant demand for data, information, models, and tools to help 
decision-makers and resources managers cope with climate change. Thus, 
the USGCRP has an unprecedented opportunity to provide even more 
``decision support'' to stakeholders. Also, we have grown wiser on how 
to run interagency science programs over the past 17 years. Given this 
increased demand for information and improved management approaches, I 
believe it is the right time to consider replacing the 1990 Act with 
H.R. 906. The type of program outlined in H.R. 906 is a significant 
step in the right direction for the following reasons:

        1.  It builds on the existing USGCRP strengths and minimizes or 
        even eliminates the weaknesses mentioned above;

        2.  It seeks more ``balance'' between the physical and 
        mitigation/adaptation research components; and

        3.  It promotes further stakeholders engagement at all levels.

    Many of the bill's provisions are fully consistent with the 
recommendations in the 2004 National Research Council report entitled: 
``Implementing Climate and Global Change Research: A review of the 
final U.S. Climate Change Program Strategic Plan.'' The only 
suggestions I have that might further strengthen the bill include:

        1.  Leadership, Priorities, and Management. Given the possible 
        dire consequences of climate change, I find it puzzling that 
        there is no mention of weather and climate in federal 
        priorities like the American Competitiveness Initiative. A 
        significant portion of our nation's economy is impacted by 
        weather and climate and this area of research and education is 
        preparing the next generation of environmental leaders that 
        will contribute to both our nation's safety and to our economy. 
        For the USGCRP leaders to make progress, this program must be 
        recognized as a key priority in both the Administration and 
        Congress. Without this level of recognition, the USGCRP leaders 
        will not have the clout to make sure the program stays focused 
        on the highest research and policy priorities. This bill would 
        be even stronger if it required the USGCRP interagency 
        committee to have: (1) a clear budget process linking tasks to 
        agency and program budgets, (2) a USGCRP Director with 
        sufficient authority to ensure that agency programs reflect 
        USGCRP priorities and make tough tradeoffs among competing 
        agencies desires and evolving program needs, (3) a timeline 
        with clear and realistic deliverables, and (4) a Director that 
        is clearly held accountable to deliver on the program's goals. 
        This would make for an effective interagency enterprise and 
        reflect what we have learned about interagency efforts over the 
        past 17 years. The flip side of this is to not make it so rigid 
        and centralized that it will actually undermine the interagency 
        process--always a danger! One the greatest frustrations and 
        challenges in putting together an integrated USGCRP while I was 
        at OMB was that there is no equivalent integrated oversight 
        mechanism in the Congress. Many people spent enormous amounts 
        of time in the Executive Branch putting this together and then 
        having it looked at in a completely non-integrated manner on 
        the Hill. Today, the restructuring of the committee 
        jurisdictions has improved the integrated oversight of the 
        USGCRP, but this is something to keep a watchful eye on.

        2.  Reporting. Within one year of the Act's enactment, the 
        Program must produce: (1) a 10 year research plan that reflects 
        user needs at the federal, State, regional, and local levels, 
        international coordination recommendations, categorize user 
        need information needed to develop policies to reduce societal 
        vulnerability to global change, and identify needed global 
        observations; (2) a vulnerability assessment for the U.S. and 
        the world that goes well beyond research; and (3) a policy 
        assessment that documents the mitigation and adaptation 
        policies being used at the federal, State, and local levels, 
        evaluate them, and recommended others, (4) a data management 
        plan, and (5) an annual report. This level of analysis and 
        reporting is likely to be very challenging within one year and 
        would probably benefit from a different sequencing. The 
        research plan would be greatly enhanced from the vulnerability 
        and policy assessment. Perhaps the research plan due date 
        should be delayed to take advantage of a combined 
        vulnerability/policy assessment that involves both the research 
        plan participants and people of very different perspectives and 
        skills (e.g., economists, policy researchers, etc). There is a 
        much greater chance that the research plan's goals and 
        priorities will be responsive to user needs with this input.

        3.  Research and User-Need Balance. This bill should help 
        refocus the USGCRP to better reflect user needs. That said, it 
        shouldn't eliminate important basic research that could lead to 
        a major scientific breakthrough due to over emphasis on user-
        driven requirements. Whether this happens or not will likely be 
        due to individual interpretation of the bill. While loosely 
        implied, this kind of balance is not directly addressed in the 
        bill and should be. Another way to look at this is that there 
        should be balance between researcher-driven research that may 
        lead to unforeseen breakthroughs and a more top-down approach 
        to managing programs and setting priorities.

        4.  Other. Unlike Title 1, there is no reference to user needs 
        in the Title II data management section. It would make sense 
        that many of these data be relevant to user needs. Lastly, 
        Title I Page 5 Lines 22-23 should include the obvious agencies 
        involved in the Program just like the data management section 
        (Title II Page 18 Lines 9-19).

    I want to thank the Subcommittee for the chance to provide this 
testimony and your stewardship of the Nation's weather and climate 
enterprise. There will be tremendous opportunities in the future for 
international climate leadership and for a broad range of research and 
technology opportunities that will have substantial return to our 
nation's economy. The future strength of our nation depends on today's 
investments in these programs.

                     Biography for Jack D. Fellows

Education

    Ph.D (1984), M.S. (1976), B.S. (1975) Civil Engineering, University 
of Maryland. Focus: hydrology, geographical information systems, and 
remote sensing.

    Dr. Fellows began his career as a research faculty member at the 
University of Maryland, where he conducted research in the use of 
satellite data in hydrologic models. In 1984, he spent a year in the 
U.S. Congress as the American Geophysical Union's Congressional Science 
Fellow. While in Congress, he split his time between the personal 
office of George Brown (D-CA) and the House Science and Space 
Subcommittee (George Brown was the Chair at the time) and worked on a 
range of policy issues, including water resources, satellite remote 
sensing, and general oversight of federal research and development 
funding. He helped write legislation that was enacted regarding the 
commercialization of land remote sensing satellites. After this 
fellowship (and largely because of it), he spent 13 years in the 
Executive Office of President's Office of Management and Budget (OMB) 
overseeing budget and policy issues related to the National Aeronautics 
and Space Administration, the National Science Foundation, and federal-
wide research and development programs. During this period with OMB, he 
helped initiate the U.S. Global Change Research Program.
    Jack has two roles at UCAR. Since 1997, Jack has been the Vice 
President of UCAR's Corporate Affairs; he's responsible for a broad 
range of corporate activities, including development of corporate 
policies and programs, liaison with the Federal Government, management 
of UCAR's consortium of over 100 national and international 
universities, and UCAR (http://www.ucar.edu) funding raising, advocacy, 
and communications activities. UCAR is a $200M+ per year corporation 
with over 1,300 employees.
    He is also the Director of UCAR's Office of Programs, responsible 
for overseeing a broad range of scientific and educational programs 
that serve the atmospheric and related research and education 
community, including building digital libraries (DLESE and NSDL), 
providing real time data to over 160 universities via the Internet 
(Unidata), training our nation's operational forecasters via distance 
learning and other media (COMET), and building a multi-national 
constellation of six micro-satellites to measure critical weather, 
climate, and space weather parameters (COSMIC), helping children around 
the world learn how to take and analyze environmental measurement 
(GLOBE), providing administrative and research services to the 
atmospheric science community (JOSS). These are all research, 
education, or technology programs that the research and education 
community have asked UCAR to manage based on its excellent management 
background and capability. UOP is $40M per year organization with over 
400 employees.
    Jack Fellows was awarded the Edward A. Flinn III Award in 1997. The 
Flinn Award is given to those individuals who personify the Union's 
motto ``unselfish cooperation in research'' through their facilitating, 
coordinating, and implementing activities.

    Ms. Giffords. Thank you, Dr. Fellows. Dr. Mahoney, please.

 STATEMENT OF DR. JAMES R. MAHONEY, ENVIRONMENTAL CONSULTANT; 
     FORMER ASSISTANT SECRETARY OF COMMERCE FOR OCEANS AND 
 ATMOSPHERE, DEPUTY ADMINISTRATOR OF THE NATIONAL OCEANIC AND 
ATMOSPHERIC ADMINISTRATION, AND DIRECTOR OF U.S. CLIMATE CHANGE 
                        SCIENCE PROGRAM

    Dr. Mahoney. Thank you, Chairwoman Giffords, and so, I 
address, of course, the entire panel, with Ranking Member 
Inglis in particular, and I want to cite Mr. Udall, and the 
Chair of the main Committee, too.
    I am delighted to have the chance to address you today, and 
I am a more recent veteran of these skirmishes, having spent 
four years in trying to make the interagency process work to a 
sensible outcome, so I associate myself very much with the 
comments that Dr. MacCracken made before, as well as those of 
Dr. Fellows just before me now.
    I will mention one of them here again just as a highlight, 
so that it won't be necessary for me to turn to it in my own 
comments quite as much, and that is I also bring the message 
that I would urge the Committee, and at the end of the day, the 
Congress, to make a more explicit position about how this 
program should be managed. On one hand, that is, after all, a 
function of the executive branch. But it isn't a function of 
the executive branch only, to say that to be successful, a 
program like this must have a reasonably funded management and 
coordination office, with a sense of permanence to it, and that 
the budget lines brought forward through OMB, and ultimately, 
those that survive in the President's budget up here to the 
Hill, have to recognize this kind of program very directly.
    One of the key weaknesses that I certainly observe in all 
the recent years is that there has been no move away from the 
concept that this is a program conducted in 13 parts by, now, 
13 collaborating agencies, and with that view, they all must 
take--they must set their own priorities, and take them 
internally, and then up to OMB, and that leaves no place to 
really solidify the view about the priorities for the whole 
program.
    So, if I were to give any one message to this committee, 
even recognizing the separation of powers, so that I wouldn't 
propose that the Congress ought to explicitly lay out chapter 
and verse of organization and management, but I think some 
guidance being given by the Congress would be very helpful, 
because it is a long-term battle, and it pained me a great deal 
to see the lack of progress that was made in a number of areas, 
because it wasn't possible to break through some of these 
problems along the way.
    With that, let me press on to the rest of my comments very 
quickly here as well. Since the Chair already introduced us, I 
won't take any more time on that, and I will pass directly to 
the point that I have a series of comments, that I divide into 
three parts. One is some overall comments. The second is a set 
of comments on structure and resources for the program, and 
then, the third is some other suggestions, as well. In my 
overall comments, the first is perhaps the most important.
    I certainly agree that the Global Change Research Act of 
1990 is ready for a significant update, and I certainly agree 
with the sense of the current draft bill, focusing on much more 
user interaction, much more assessment work and the like as 
part of that, so I simply applaud those efforts as, to my best 
lights, as being very much in place.
    Second point, an overview, though, I want to raise the very 
important caution that we need to be careful that we don't just 
flip from one extreme to the other, in other words, that we 
don't deemphasize the science, to the point, by saying that 
what we need to do is assessment and user interaction, which we 
must do, but if that all simply came at the expense of the 
underlying science, I would assert strongly that what we know 
now, yes, the question about human causation of global change 
is settled, but there are so many other very important science 
questions about regional impacts, abrupt climate change, and we 
could go on and make a list that would consume all the time 
here. So, what I would suggest that what the, hopefully the 
Congress, this committee first, and then, ultimately, the 
Congress would deal with in this, is something that recognizes 
the great need to pick up the user involvement, and get going 
on that kind of assessment work, but to mate that with this 
continuing strong commitment to the underlying science.
    And then I, also, as an overview comment, cite back some of 
the areas where I see the benefit of the things the Committee, 
that this bill, the current train has brought along, the 
requirements for stakeholder involvement, the major emphasis on 
improved data management, and a clear mandate for developing 
policy analysis statements as a basis for understanding our 
climate information.
    I would cite, somewhat in hindsight, that one of the 
reasons that the Climate Change Science Program was not able to 
address as much as it might have wanted of some of the 
underlying scientific information use questions was that there 
was no framework to put that against in terms of either one or 
more, or a set of policies that are worth examining. So, 
treating those things are a very good point.
    Now, I will very quickly go to a close. I have got a 
comment on structures and resources. First of all, there is no 
specific funding mechanism, neither authorization, nor other 
guidance about approaches to funding in the bill, and I would 
commend that to your attention, given the great difficulty of 
making a long-term multi-agency program run. There continues to 
be a great need to assure the independence of the science. I 
think that is there in large part with the call for continued 
involvement with the National Academy. The Academy's 
involvement with the current program is now well in place under 
contract, and presumably, this bill will do nothing to take 
that out of place.
    I look to see major OMB involvement in this activity, 
because it can't simply look at the pieces and the various 
lines, but it has to look at the program altogether, and as my 
colleagues have already commented, too, there is a clear need 
for the bill to say something directly about the importance of 
a coordination office, and its location in government, and its 
funding.
    And then, just the last closing comments. I believe some of 
the timelines now set out in the bill, and the first year, in 
particular, are unrealistic. There is a call for five different 
reports to be done in the first year, and there is just no way. 
I would bet a dime and make $0.20 on my bet, that that would 
not happen in one year. So, I would suggest that you might want 
to take another look at phasing those somewhat.
    Second, there is a need to call for a solid communication 
and education strategy in the bill, too, since this deals so 
much with user involvement with the information, yet there is 
still no call for that kind of communication capability, and 
that was absolutely the poor orphan of everything we tried to 
do in recent years, so I would hate to see that get left off 
without any kind of mandate in the law, when this is done.
    And finally, there is a need to coordinate the reports and 
output from this program with the international activities and 
other U.S. Government reporting activities in the climate area, 
too. Simply to say, as my very last point, since the IPCC, for 
example, which is just releasing its Fourth Assessment, and 
which will start a six-year process toward its Fifth 
Assessment, it would be helpful for the bill to recognize 
something that would alternate phase between the international 
assessments and the major reporting responsibilities in the 
states, because many of the same group of scientists, hundreds 
of U.S. scientists are involved in both of those activities. 
Many of them are the same people, and the quality is better if 
the pain is stretched out a little bit.
    Thank you very much.
    [The prepared statement of Dr. Mahoney follows:]

                 Prepared Statement of James R. Mahoney

    Chairman Giffords, Ranking Member Inglis and Members of the 
Subcommittee: thank you for your invitation to address the subcommittee 
today on the important issue of ``Reorienting the U.S. Global Change 
Research Program toward a user-driven research endeavor: H.R. 906.'' I 
am James R. Mahoney, and I currently serve as an environmental 
consultant, providing scientific and professional advice to a number of 
organizations. From April 2, 2002 to March 30, 2006 I was Assistant 
Secretary of Commerce for Oceans and Atmosphere, and Deputy 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA). During this period I was also the Director of the U.S. Climate 
Change Science Program (CCSP), involving 13 federal agencies conducting 
and overseeing total annual budgets of approximately $2 billion 
dedicated to scientific research, Earth system observations, computer 
simulations of future climate conditions, and evaluation of possible 
adaptation and mitigation actions to address climate change. I 
reluctantly retired from my federal appointment approximately one year 
ago because of continuing significant health problems.
    In 1966 I received the Ph.D. degree in meteorology from MIT, with a 
specialization in geophysical fluid mechanics. Since that time I have 
had over 40 years continuous experience in science-based environmental 
management, including service on the faculty of Harvard University, 
advisory assignments with national government agencies and 
international organizations in several regions of the world, extensive 
private sector environmental assessment and design work, and two 
appointed positions with the U.S. Federal Government (involving overall 
management of national acid rain studies from 1988 to 1991, and climate 
science studies from 2002 to 2006). A resume summarizing my experience 
follows this testimony.
    In response to Chairman Lampson's letter of invitation, my 
testimony today provides my views about H.R. 906 from the specific 
perspective of my experience as Director of the U.S. Climate Change 
Science Program from 2002 to 2006. Also I make recommendations about 
other, supplementary issues that the Subcommittee may wish to consider 
during its continuing consideration of H.R. 906.

A. Overall comments:

1.  The Global Change Research Act of 1990 is in need of significant 
updating. H.R. 906 is a good start. In its final version it would be 
helpful for the revised law to reflect the goal of expected significant 
improvements in the coverage and level of detail available in climate 
information, and to call for major upgrading of the expected uses of 
climate information (measurements, analyses and projections) for the 
development of climate services, which will be the principal actions 
expected to be undertaken by climate information users.

2.  A proper balance should be sought between ongoing climate research 
on the one hand, and developing assessments and decision support 
applications on the other hand. H.R. 906 is on the right track in its 
emphasis on enhancing the importance of user initiatives and 
applications studies in the development of overall climate research 
planning. However, it would be highly damaging to the international 
efforts to better adapt to, and mitigate the effects of, extreme 
climate phenomena if the support for exploratory research were deeply 
diminished prematurely. While an improved consensus about the core 
question of human-caused climate change has emerged in recent years, 
very little is currently well understood about many climate phenomena 
that pose great risks for a large number of human and ecosystem 
populations around the world. Examples of poorly understood current 
climate issues include, among others, abrupt climate change, regional 
variability of climate parameters, climate-ecosystem interactions, and 
the (new) levels of extreme weather conditions that may occur as a 
result of changes in global, regional, and local climate patterns.

3.  H.R. 906 appropriately addresses several requirements in the U.S. 
climate research program that currently need improved resources and 
activities. These improvements (compared to the provisions of the 1990 
Act, and compared to the practices that have emerged in the 17 years 
since the adoption of that Act) include (1) a more specific requirement 
for significant stakeholder engagement in research planning and in the 
use of the climate information being developed, (2) a clear requirement 
for sophisticated information management to address the massive amount 
of new climate data currently being collected, and the further 
expansion of these data sets that will come on line in the next few 
years, (3) a clear mandate to develop policy analysis methods capable 
of making appropriate use of the large investment in climate 
information.

A. Structure and Resource Comments:

1.  H.R. 906 does not specify a mechanism for funding the expanded 
program responsibilities envisioned in the bill. A multiple-agency 
program is still the most effective approach, but more legislative 
structure would better clarify individual agency roles. The multiple-
agency organization of the program makes sense, although there should 
be more careful delineation of roles between agencies that are 
predominantly research oriented (e.g., NSF, NASA, DOE, parts of NOAA) 
and those that are mission-oriented and thus key user stakeholders. 
This will streamline certain types of decision-making. A ``user 
council'' or similar body should be created and empowered to provide 
input on directions and also provide funding for user-oriented programs 
and products.

2.  There is a need to assure the independence of the science while 
providing for committed overview by the politically appointed 
management of the collaborating agencies. The CCSP activities initiated 
in 2002, including the 10-Year Strategic Plan for CCSP published in 
July 2003, have provided a highly useful framework for all CCSP 
studies. It is now timely to reevaluate and update the major elements 
of the 2002-2003 research plan. Regular ongoing involvement of the 
National Academy of Sciences should be continued. This continuous 
review function has been placed under a long-term contract basis 
between CCSP and the Academy, and should be maintained.

3.  A stronger role for OMB should be mandated in H.R. 906 to 
facilitate budgetary coordination across the agencies. CCSP has been 
reasonably successful in achieving interagency research coordination, 
but after the passage of five years it would be an appropriate time to 
assure the independence of the climate research program by providing 
for a direct role for OMB in the oversight of the multiple agency 
program.

4.  H.R. 906 should provide the program with two budget lines under the 
control of the interagency committee of the whole. One set of resources 
would be used to fill gaps and generate new research thrusts that are 
difficult to support through individual agency mechanisms and for which 
there is a clear need. A second set of resources would be used to 
support regional or national assessment and decision support 
activities. These funds could be awarded on a competitive basis but 
would require a collective decision on the part of the interagency 
process to be released.

5.  The role of and funding for a coordination office should be 
explicitly included in the legislation. This funding should not be 
taken out of research funding. The current practice of ``taxing'' 
research funds to support overall program coordination activities has 
historically resulted in under provision of resources for the 
coordination and management function. My experience over the past 
several years suggests that an adequately funded program coordination 
office is essential. With a growing emphasis on the coordination of 
assessments and decision support studies, even more ``cross-cut'' 
management will be needed, and the funds for this type of program 
integration must be assured.

B. Other Important Suggestions

1.  Unreasonable timetables are currently specified by H.R. 906. The 
current draft bill calls for five separate reports to be completed 
within one year of enactment. These include a new strategic plan, a 
policy review, a vulnerability assessment, a data management plan, and 
an annual report. Given the need for extensive multiple-agency drafting 
and review actions, as well as other reviews by user groups and the 
scientific community, in my view it will be impossible for the program 
to produce quality documents in all of the specified categories within 
a one-year time frame. I suggest that the time for delivery of this 
first set of information be extended over two years or more.

2.  An overall communications strategy should be included in H.R. 906. 
Based on my personal experience as Director of the National Acid Rain 
Assessment Program in the late 1980's and as Director of CCSP for four 
years recently, I earnestly recommend that responsibilities for 
communication and education activities be incorporated into H.R. 906. 
Without a clear mandate for such activities, it is almost impossible to 
obtain approval for communications and education activities in the 
President's budget. And without support for communications and 
education activities, the efficiency of transmitting climate change 
information to potential users throughout the Nation will be seriously 
diminished.

3.  The assessment reporting requirements in H.R. 906 should be 
coordinated with other national and international climate reporting 
cycles already established. The IPCC Fourth Assessment is currently 
being completed, and will likely be followed by a Fifth Assessment six 
years later (i.e., in 2013). During approximately a two-year period of 
drafting and review for the IPCC assessment, the U.S. climate science 
community will be heavily engaged in the IPCC international assessment. 
I recommend that the summary assessments specified in H.R. 906 be 
placed on a six-year schedule (at least after the first edition), and 
the schedule for the U.S. assessments be offset by approximately three 
years form the delivery dates for the IPCC reports.

    I trust my suggestions offered here may be useful to the 
Subcommittee, and I would be pleased to respond to any questions that 
you may have. Thank you.

                     Biography for James R. Mahoney

Education

    LeMoyne College, Syracuse, NY: B.S., Physics, Magna cum Laude, 1959

    MIT, Cambridge, MA: Ph.D., Meteorology, 1966

Professional Experience

2002-2006 (March): Assistant Secretary of Commerce for Oceans and 
Atmosphere and Deputy Administrator of the National Oceanic and 
Atmospheric Administration (NOAA). Also served throughout this period 
as Director of the U.S. Climate Change Science Program, involving the 
combined work of 13 federal agencies with an annual program budget of 
approximately $2 billion.

1999-2002 (March): Environmental management consultant serving U.S. and 
international clients. Topics included insurance recovery for 
environmental damages, and technical analysis of regional air quality 
and haze patterns.

1991-1999 (July): Senior Vice President of International Technology 
Corporation, a $1+ billion international engineering and construction 
company pursuing a broad technical specialty environmental business, 
combined with field construction activity dealing with restoration of 
contaminated soil and ground water. From 1997 to 1999 also served as 
President of the Consulting and Engineering Division of the 
corporation, responsible for a $200+ million technical business. Also 
from 1997 to 1999 served as Chairman of the Board and responsible 
corporate officer for Landbank, Inc., a wholly owned subsidiary 
addressing the brownfield market by restoring and redeveloping 
contaminated commercial property sites.

1988-1991 (January): Director of the National Acid Precipitation 
Assessment Program (NAPAP) involving six federal agencies with a 
combined federal budget of approximately $100 million annually. The 
position was in the Executive Office of the President, during the final 
year of the Reagan administration and during the first two years of the 
administration of President George H.W. Bush.

1987-1988 (February): Environmental management consultant serving U.S. 
and international clients. Topics included environmental management 
government organization planning for Saudi Arabia, and environmental 
permitting issues for large Kraft paper plants.

1984-1987 (February): Manager of the Environmental Industries Center of 
the Bechtel Group, Inc. The Environmental Industries Center addressed 
environmental compliance, planning and engineering matters for 
Bechtel's major domestic and international clients.

1983-1984 (January): Environmental management consultant serving U.S. 
and international clients. Topics included strategic planning for a 
large environmental engineering firm, and comparative studies of 
international environmental regulations.

1968-1983 (September): Co-founder and Senior Vice President of 
Environmental Research & Technology, Inc. (ERT). ERT began as a start-
up in December 1968 and by the late 1970's it had grown to become the 
largest environmental specialty firm in the United States, with offices 
and laboratories located throughout the United States combined with a 
substantial international business operating in several countries in 
both the developed and developing world. Also served as President of 
ERT International, Inc., a wholly owned subsidiary responsible for 
ERT's international business from 1975 until 1983.

1966-1973 (June): Assistant Professor and Associate Professor (from 
July 1970) in the School of Public Health at Harvard University, 
specializing in environmental health management. During the period from 
December 1968 through June 1973 I served in two positions: the faculty 
position at Harvard and the Senior Vice President position at ERT, Inc. 
(see above).

1962-1965 (December): Graduate research assistant in the Department of 
Meteorology at MIT.

1959-1962 (June): Graduate student at MIT, supported by fellowship 
grants.

1956-1959 (June): Laboratory assistant and lecturer in the Physics 
Laboratories at LeMoyne College.

Honors

2006: Awarded the U.S. Department of Commerce William C. Redfield Award 
        for outstanding public service, presented by Commerce Secretary 
        Carlos M. Gutierrez.

2002: Confirmed by the U.S. Senate (following nomination by President 
        George W. Bush) to be Assistant Secretary of Commerce.

1990: Elected as a Fellow of the American Meteorological Society.

1990: Awarded the U.S. Department of Commerce Gold Medal for 
        outstanding accomplishments as Director of the National Acid 
        Precipitation Assessment Program, presented by Commerce 
        Secretary Robert A. Mosbacher.

1989: Elected as President of the American Meteorological Society.

1985: Selected as one of a group of four inaugural Bechtel Fellows from 
        a worldwide population of 100,000+ Bechtel employees.

1973-2006: Served as member and co-chair of several committees and 
        boards of the U.S. National Academy of Sciences.

1959: Selected as a Danforth Graduate Fellow in a national competition 
        among college seniors.

1955: Valedictorian of high school graduating class (Christian Brothers 
        Academy of Syracuse, NY).

    Ms. Giffords. Thank you, Dr. Mahoney. Mr. Nutter, please.

STATEMENT OF MR. FRANKLIN W. NUTTER, PRESIDENT, THE REINSURANCE 
   ASSOCIATION OF AMERICA; MEMBER OF UCAR'S BOARD OF TRUSTEES

    Mr. Nutter. Madam Chair, Members of the Committee, thank 
you. It is an honor to appear before you.
    Reinsurance is essentially the insurance of insurance 
companies. Insurance companies traditionally lay off risk, 
particularly catastrophe risk, notably extreme weather events 
to the reinsurance market.
    No financial services business is more dependent on the 
vagaries of climate and weather than property and casualty 
insurers. The industry is at great risk if it does not 
understand climate change variability, and the severity and 
frequency of extreme events. Understanding global climate 
change and integrating that information into the insurance 
system is an essential part of addressing climate extremes, and 
conveying information to governments and the public about the 
economic consequences of human activity in the face of a 
changing global climate.
    We believe that the enactment of H.R. 906, with an 
increased emphasis on input to government climate research by 
user communities such as ours, will greatly enhance adaptation 
and response to the effect of climate and of global change. The 
industry looks at climate change largely through the prism of 
the catastrophe losses that it pays. The General Accounting 
Office just released a report that from 1980 through 2005, 
private insurers and federal insurers, meaning the National 
Flood Insurance Program and the Crop Insurance Program, paid 
$320 billion in claims on weather-related losses. The insurance 
industry paid two-thirds of those losses. 2005 alone produced a 
record year. Total global insured catastrophe losses were $83 
billion, 80 percent of which were U.S. landfalling hurricanes.
    As bad as those numbers, AIR Worldwide estimates that 
insured losses from natural catastrophes could be expected to 
double roughly every ten years. With respect to the impact of 
climate change alone, fixing everything else in place, the 
Association of British Insurers concludes that the average 
annual losses from three major storm types affecting insurance 
markets, that is U.S. hurricanes, Japanese typhoons, and 
European windstorms, could increase by two-thirds by the 2080s. 
Climate change could increase wind-related insured losses from 
extreme U.S. hurricanes by about three quarters, the equivalent 
of two to three Hurricane Andrews annually. The ABI advises 
that these loss estimates do not include likely increases in 
society's exposure to extreme storms due to growing wealthier 
populations and increasing assets at risk. These are their 
assessments based upon the impact of climate change.
    The catastrophe modeling firm Risk Management Solutions 
advises that financial losses from weather-related catastrophes 
have increased by an average of two percent per year since the 
1970s, with climate change as a major factor, even when 
inflation, changes in wealth and population, are taken into 
account.
    It is quite clear that there are several factors affecting 
the losses associated with extreme events, including population 
growth in high risk areas, certainly people moving to those 
areas, the dramatic increases in insured coastal values, the 
insurance industry's own expansion of coverage, climate change, 
and the incidence of more intense extreme events.
    We believe that H.R. 906, with greater emphasis on basic 
climate research, coordination among sponsoring government 
agencies, improved integration of user needs into the research 
agenda, and access to climate data will enhance risk 
assessment, and lead to improved insurance markets.
    In this regard, our sector needs science-based business 
intelligence. A key component of the Global Climate Change 
Research Program is observation technologies. It will be 
critical to our ability to provide insurance markets that 
climate and weather data through observation capabilities be 
maintained.
    Perhaps the most relevant aspect of the insurance industry, 
with respect to science assessment and extreme events, is the 
use of catastrophe models. These models incorporate scientific 
assumptions about climate trends and the probability of future 
events, then produce estimates of prospective costs associated 
with these events.
    In the context of the Global Climate Change Research 
Program and its reauthorization pursuant to H.R. 906, our 
industry would benefit from enhanced research on historical 
extreme events, particularly those which predate satellite 
technology. Climate research which addresses the effect of 
climate change on the frequency and intensity of extreme events 
would be of great value. Additionally, the consequences of 
climate change on extreme weather regionally would improve 
insurer adaptation strategies.
    A key component of this agenda, again, are observation 
capabilities. Our industry is taking steps to adjust to climate 
change, even though there is no insurance policy that covers 
climate change. It is our belief that H.R. 906 will be of great 
value in improving our capability. Insurers are in the business 
of assessing risk, pricing it, and providing financing or risk 
transfer. Its long-term strategy, however, does not include 
bearing the costs of climate change without a commitment on the 
part of society to pursue a mitigation strategy addressing both 
the causes and consequences of climate change.
    H.R. 906 is to be commended as placing greater weight on 
basic research, that emphasizes user needs, and maintains or 
enhances observation capabilities, the coordination of research 
with the global research community, as well as private sector 
resources.
    Thank you very much.
    [The prepared statement of Mr. Nutter follows:]

                Prepared Statement of Franklin W. Nutter

Chairman Lampson, Ranking Member Bartlett and Members of the 
Subcommittee on Energy and Environment:

    My name is Frank Nutter and I am President of the Reinsurance 
Association of America (RAA). It is an honor to appear before you on 
behalf of the RAA. The RAA is a national trade association representing 
property and casualty organizations that specialize in assuming 
reinsurance. Together, RAA members and affiliates write over 70 percent 
of the reinsurance coverage provided by U.S. property and casualty 
reinsurers and affiliates.
    No financial services business is more dependent on the vagaries of 
climate and weather than property and casualty insurers. The industry 
is at great risk if it does not understand global climate variability 
and the severity and frequency of extreme events. It must be more than 
a pass-through mechanism for the costs associated with natural 
disasters. Understanding global climate change and integrating that 
information into the insurance system is an essential part of 
addressing climate extremes and conveying information to governments 
and the public about the economic consequences of human activity in the 
face of changing global climate.
    We believe that the enactment of H.R. 906, the Global Climate 
Change Research Data and Management Act of 2007, with an increased 
emphasis on input to government climate research by user communities 
will greatly enhance adaptation and response to the effects of global 
change.

Climate and Catastrophes

    The General Accounting Office reports that from 1980 through 2005 
private and federal insurers paid $320 billion in claims on weather 
related losses. The insurance industry paid two-thirds of those losses. 
The number of insured natural catastrophes has doubled since 1990; the 
insured losses in this decade already exceed the decade of the 1990s. 
The year 2005 alone produced a record: total global insurer catastrophe 
claims were $83 billion, 80 percent of which were from U.S. land-
falling hurricanes. Even 2006, thought of as a benign catastrophe year, 
produced 43 insured loss catastrophes in North America out of a global 
total of 349. Although some of these catastrophes are earthquake 
related, over 90 percent of events causing damage to people and 
property originated in the atmosphere. Almost 12,000 people lost their 
lives to storms and floods in 2006. AIR Worldwide estimates that 
insured losses from natural catastrophes should be expected to double 
roughly every ten years due to increases in construction costs, 
increases in the number of structures and changes in their 
characteristics.
    With respect to the impact of climate change, the Association of 
British Insurers concludes as follows:

        <bullet>  Average annual losses from the three major storm 
        types affecting insurance markets (U.S. hurricanes, Japanese 
        typhoons and European windstorms) could increase by two-thirds 
        by the 2080s.

        <bullet>  Focusing on the most extreme storms (losses with a 
        probability of occurring once every 100 to 250 years), by the 
        2080s climate change could:

                --  Increase wind-related insured losses from extreme 
                U.S. hurricanes by around three-quarters (the 
                equivalent of two to three Hurricane Andrews annually).

                --  Increase wind-related insured losses from extreme 
                Japanese typhoons by around two-thirds. The increase 
                alone would be more than twice the cost of the 2004 
                typhoon season, the costliest in the last 100 years.

                --  Increase wind-related insured losses from extreme 
                European storms by at least five percent.

                --  Increase the annual costs of flooding in the UK 
                almost 15-fold.

        <bullet>  Under high emissions scenarios, insurers' capital 
        requirements could increase by over 90 percent for U.S. 
        hurricanes, and by 80 percent for Japanese typhoons. Higher 
        capital costs combined with greater annual losses from 
        windstorms alone could result in premium increases of around 60 
        percent in these markets.

    The ABI advises that these loss estimates do not include likely 
increases in society's exposure to extreme storms, due to growing, 
wealthier populations, and increasing assets at risk.
    Financial losses from weather-related catastrophes have increased 
by an average of two percent per year since the 1970s, with climate 
change a major contributing factor, according to the chief researcher 
of catastrophe modeler Risk Management Solutions, Inc. The rate of loss 
increase holds true even when inflation, changes in wealth and 
population growth are taken into account. In its latest climate change 
report, Rapid Climate Change, Lloyd's of London warns that waiting on 
``definitive scientific pronouncements'' on the impact of climate 
change ``seems like an increasingly risky strategy.''
    The causes behind the dramatic rise in insured catastrophe losses 
are several:

        <bullet>  Population growth in high-risk areas. Dramatic 
        increases in high risk coastal areas suggest people and local 
        governments have placed too little emphasis on exposure to 
        weather risk in a changing climate environment.

        <bullet>  Dramatic increases in insured coastal values. Florida 
        now has nearly $2 trillion of insured coastal properties. New 
        York has $2 trillion, Louisiana $209 billion and South Carolina 
        $149 billion.

        <bullet>  The insurance industry's own expansion of coverage 
        which had the effect of increasing potential insured damage; 
        deductibles were lowered and full replacement cost added to 
        homeowners' policies in the period 1970-1990. Government 
        policy, which either endorsed weak building codes or failed to 
        enforce existing building codes and which has facilitated 
        development in high risk areas. Recent State government 
        initiatives are encouraging however.

        <bullet>  Climate change and the incidence of more intense 
        extreme events. Munich Re's Geo-Science Department has 
        concluded that the proportion of severe storms has risen and 
        that of moderate storms has fallen. Three of the ten most 
        intense storms ever recorded in North America were in 2005.

The Insurance Industry's Financial Interest

    The insurance industry's financial interest is inter-dependent with 
climate and weather. It is the risk of natural events which drives the 
demand for insurance coverage and yet, if not properly managed, can 
threaten the viability of an insurer if it is over-exposed in high risk 
areas. An insurance company thrives or dies on its ability to make 
estimates of the economic consequences of future events.
    We believe pursuant to H.R. 906, greater emphasis on basic climate 
research, coordination among sponsoring government agencies, improved 
integration of user needs into the research agenda, and access to 
climate data will enhance risk assessment by insurers and lead to 
improved insurance markets.

Insurance and Science

    Although a number of European insurers and reinsurers have shown 
greater interest in understanding the causes of climate change, 
including the impact of global warming, U.S. insurers have been more 
focused on the effect of natural disasters. Thus, the U.S. industry has 
been more attentive to approaches to mitigate the consequences of 
natural catastrophes and other extreme events. Some European insurers 
have called upon their governments to reduce the human factors they 
believe contribute to global warming. In the U.S., the industry's 
agenda includes the evaluation of building codes and building code 
enforcement in every community in the country. Additionally, through 
the Institute for Business & Home Safety, the U.S. industry has greatly 
enhanced its support for hazard mitigation by conducting research on 
building design and building materials. Improved research on the likely 
impact of climate change on extreme weather and the built environment 
will improve society's hazard mitigation adaptation.
    The initiative most related to science and scientific assessment of 
global climate change is the use of catastrophe computer models to 
integrate scientific knowledge about climate into the actuarial 
sciences. These catastrophe models incorporate scientific assumptions 
about climate trends and the probability of future extreme events and 
then produce estimated prospective costs associated with natural 
catastrophes. They assist an insurer with an analysis of its potential 
exposure and are used to support rates filed for approval with 
insurance departments. It is the classic example of using insurance to 
translate scientific analysis and data into the economic consequences 
of people's behavior, i.e., where they live and the value and potential 
loss of properties in those areas. The pure result of the use of 
catastrophe models is the application of risk-based premiums and the 
understanding of aggregate exposure for insured property.
    In the context of the Global Climate Change Research Program and 
its reauthorization pursuant to H.R. 906, the industry would benefit 
from enhanced research on historical extreme events; particularly those 
which pre-date satellite technology. Climate research which addresses 
the effect of climate change on the frequency and intensity of extreme 
weather would be of great value. Additionally, the consequences of 
climate change on extreme weather regionally would improve insurer 
adaptation strategies.

Insurance Related Adaptive Product Strategies

    Although insurance often covers damages from climate related 
events, there is no insurance policy with specific coverage related to 
climate change. Insurers and brokers have however announced the 
development of several climate related financial products:

        <bullet>  Carbon emissions credit delivery guarantees providing 
        coverage for non-delivery of credits due to project insolvency, 
        political and investment risk, operational problems (Marsh)

        <bullet>  Insurance for one-third of waste to energy plants and 
        one-quarter of wind farms (Lloyd's of London)

        <bullet>  A risk financing product that facilitates trade by 
        companies that participate in global trading of emissions 
        credits (an options contract) (Swiss Re)

        <bullet>  A financial product that provides a buyer for carbon 
        credits in the secondary market if the primary buyer fails to 
        deliver (Munich Re)

        <bullet>  Directors and officers liability coverage for failure 
        to address corporate compliance with government regulations 
        (Swiss Re)

        <bullet>  New risk transfer products for weather related 
        damages: ``Cat Bonds'' ($5 billion were issued in 2006, $30 
        billion since 1996); weather derivatives ($45 billion in 
        notional value in 2005-6)

        <bullet>  Exchange traded weather securities (Chicago 
        Mercantile Exchange and the New York Mercantile Exchange with 
        Gallagher Re (2007) )

    Industry observers also note that, as an adaptive strategy, 
insurers should focus research on energy efficient technologies that 
have the potential to reduce ordinary insured losses. They also 
encourage the development of insurance products with premium discounts 
that reward safety enhancing energy efficiency. In addition, the 
industry has been encouraged to increase in its investment portfolio 
energy efficiency oriented investments.
    In a world where ``reducing carbon dioxide emissions from a high to 
a low scenario would reduce the impact on losses and insurers' capital 
requirement for extreme windstorms by 80 percent'' (Association of 
British Insurers), the industry is showing signs of initiative to 
address carbon related climate concerns. AIG recently (April 2007) 
joined as the first insurer in the U.S. Climate Action Partnership 
(CAP), whose goal is a U.S. cap and trade system. Prudential Financial 
and Hartford Financial Services have agreed to disclose to shareholders 
the potential financial risk they face from climate change (April 
2007). Swiss Re set a target of being greenhouse neutral in its 
business operations by 2013.

Conclusion

    Insurers are in the business of assessing risk, pricing it and 
providing risk financing or transfer. The insurance industry's long-
term strategy, however, does not include bearing the cost of climate 
change without a commitment on the part of society to pursue a 
mitigation strategy--addressing the causes and consequences of climate 
change. H.R. 906 is to be commended as placing greater weight on basic 
research that emphasizes user needs and priorities and the coordination 
of research with the global research community, including public, 
academic and private resources.

                    Biography for Franklin W. Nutter

    Frank Nutter has been President of the Reinsurance Association of 
America (RAA) since May of 1991. He held the same position with the RAA 
from 1981-1984.
    In the interim, he was President of the Alliance of American 
Insurers and the Property Loss Research Bureau, which have now merged 
to be part of the PCI (Property Casualty Insurance Association of 
America).
    Mr. Nutter currently serves on the Board of Trustees of the Bermuda 
Biological Station for Research; the Board of the International 
Hurricane Center; the Advisory Board of the Center for Health and the 
Global Environment, an adjunct to the Harvard University Medical 
School; and the Board of the University Center for Atmospheric 
Research, a consortium of universities funded primarily by the National 
Science Foundation. He currently serves on the Advisory Board of the 
OECD's International Network for the Financial Management of Large 
Scale Disasters.
    Mr. Nutter has a Juris Doctorate from the Georgetown University Law 
Center and a Bachelor's degree in economics.

    Ms. Giffords. Thank you, Mr. Nutter. Gentleman, I think 
probably the best plan would be to go to Dr. Mote. We have 15 
minutes to get to the Floor to vote, and if we can keep your 
testimony, again, to five minutes, then we will recess, and 
hopefully, see you all back after--we have a series of votes, 
so we can't split the group up, and have half go, and half come 
back.
    So, Dr. Mote, we will go to you, and then, we will recess, 
and come back afterwards.

    STATEMENT OF DR. PHILIP W. MOTE, CLIMATE IMPACTS GROUP, 
     UNIVERSITY OF WASHINGTON; OFFICE OF WASHINGTON STATE 
  CLIMATOLOGIST AND AFFILIATE PROFESSOR AT THE UNIVERSITY OF 
                           WASHINGTON

    Dr. Mote. Thank you, Madam Chair and Members of the 
Committee, for your interest in climate monitoring research and 
applications. I am Philip Mote, and I am a research scientist.
    I am involved in the Pacific Northwest Climate Impacts 
Group which, since 1995, has been articulating how climate 
influences natural resources, not just climate change, but 
climate variability. And we have also made great strides in 
discussing these findings with natural resource managers, 
getting their perspective, what they need, and what information 
they need from us. So, I have been on both sides of, you know, 
doing basic science research, and also, more applied science. 
The Climate Impacts Group is one of eight regionally funded 
teams funded by NOAA's Regional Integrated Sciences and 
Assessments Program. Unfortunately, the whole country is not 
covered or served by RISA programs.
    As the science of climate variability and change has 
advanced tremendously since 1990, so too have the societal 
demands for information about climate and what it means 
locally. Some examples of how climate has advanced: climate 
models now consist of elaborate components that simulate the 
ocean and sea ice, land surface, biosphere, carbon cycle, as 
well as the atmosphere, and our regional models are now capable 
of simulating climate in great deal regionally. And there is, 
in fact, a program underway called NARCCAP, the North American 
Regional Climate Change Assessment Program, which is combining 
regional climate modeling for the whole country, coordinated by 
the National Center for Atmospheric Research.
    There have also been tremendous advances in paleoclimate, 
our ability to use tree rings and other so-called proxies to 
understand climate over timescales of hundreds to thousands of 
years, that provide the context for understanding our current 
climate and possible future climate.
    Let me give you some examples of information that 
stakeholders have sought from the Climate Impacts Group or from 
the Office of Washington State Climatologists. Water utilities 
around the Northwest are factoring in climate change to long 
range plans, so they want to know what are the probable changes 
in temperature, precipitation, snowmelt, streamflow, so that 
they can incorporate that, as well as population and demand 
changes, into their plans and their policies.
    The Northwest Power and Conservation Council wanted very 
detailed streamflow estimates for future decades, so that they 
could calculate changes in hydropower production from the 
Columbia River basin, and the hydropower dams there. The U.S. 
Army Corps of Engineers is starting to think about what does it 
mean to change flood control rule curves that govern 
reservoirs, given that there has already been an observed shift 
of two weeks in the spring snowmelt. There is no policy that 
currently would allow them to make that move, but for starters, 
they need good, detailed information. A natural gas utility 
wanted help demonstrating to the state Utilities and 
Transportation Commission that warming trends have rendered 
obsolete the old assumption of constant climate by which their 
rates are set.
    So, a regional and State level focus is very valuable for 
connecting with these stakeholder needs, and providing climate 
services. In a number of respects, a national level effort, a 
National Climate Service, is needed, that would take the basic 
research that is provided by modeling centers and analysis, and 
translate into stakeholder needs.
    National level expertise in climate science can provide the 
highest quality, most comprehensive information about patterns 
of climate variation and change, both from the past and from 
future modeling. Such expertise can be brought to bear on 
problems that may be too difficult for a single regional group 
to solve. For example, to properly construct probabilistic 
scenarios of future climate change at a given location would 
ideally involve evaluating scenarios from tens of climate 
models against the observed record of the 20th Century, and 
then weighting their projects of future change according to how 
well they did with the past. This is a task that is both 
computationally and conceptually probably too challenging for a 
regional team like ours to undertake.
    Another challenge would be the construction of sea level 
rise scenarios, factoring in not just global sea level rise, 
but local relative land movements, obviously of great concern 
in the tourist-friendly beaches of South Carolina, which I had 
the good fortunes to visit a year or two ago. All of these 
things, all these types of information are needed on very fine 
local scales, and can be provided by a comprehensive national 
effort.
    Finally, a word about the unglamorous topic of monitoring 
the climate, which H.R. 906 rightly addresses. As numerous 
reports by the National Research Council and others have 
documented, the Nation's various observing networks and, 
notably, the cooperative observer network that forms the 
backbone of long-term weather observations, and the streamgauge 
network of the U.S. Geological Survey, are slowly dwindling in 
coverage and, in some cases, quality. A vigorous effort is 
urgently needed to preserve these networks as our primary 
source of information for documenting the changes in our 
environment and our climate over the 20th Century and into the 
21st Century, in order to understand how best to cope with 
these changes. The American Association of State Climatologists 
calls on the 110th Congress to rescue these networks from 
decline.
    Finally, a National Climate Service, with high level buy-in 
from the Administration and the various agencies would serve 
the needs for climate information of a wide spectrum of private 
and public sector entities, and H.R. 906 points us in that 
direction.
    [The prepared statement of Dr. Mote follows:]

                  Prepared Statement of Philip W. Mote

Summary

    As the science of climate variability and change has advanced and 
as public awareness of its implications for natural resource management 
and economic activity has grown, demands for climate information have 
rapidly exceeded the capacity of experts. Significant federal 
investment is needed in a National Climate Service to match these 
growing needs. H.R. 906 aims in that direction by calling for improved 
direction of federally funded climate research.

Regional focus

    For several reasons, a regional focus on research and delivery of 
climate information is appropriate. First, economic and natural 
resources emphases differ starkly from region to region, and in some 
cases are organized regionally (for example, the Northwest Power and 
Conservation Council). Second, a regional focus matches regional 
decision-makers and regional scientists whose very proximity permits 
sustained interactions, understanding, and trust to develop.
    NOAA's Climate Program Office meets some needs for climate 
information by leading and funding efforts such as the Regional 
Integrated Sciences and Assessments (RISA) program. RISA projects point 
the way toward a new paradigm of stakeholder-driven climate sciences 
that directly address society's needs and concerns.
    The RISA program began with university-based efforts in regions of 
the United States where recent advances in integrated climate sciences 
held the greatest promise to assist decision-making. Much of the first-
generation RISA success built on breakthroughs in predicting 
variability, change, and impacts of climate processes occurring in the 
tropical Pacific Ocean. This is the area where El Nino and La Nina 
conditions, which affect much of the western and southern United 
States, as well as Mexico, originate.
    RISA scientists provide information that decision-makers can use to 
cope with drought, understand climatic influences on wildfire, and 
assess climate impacts on the transportation sector, coastal 
communities and human health. Stakeholders can use such information to 
evaluate potential climate change impacts on water supplies and 
hydroelectric power and support disaster management planning. RISAs are 
helping farmers, ranchers, and fishermen use climate information to 
produce the Nation's foods and fibers, and Pacific Islanders to figure 
out how to weave climate information into their quest for 
sustainability.
    With each passing year, the impacts of climate variability and 
change on water availability, wildfire regimes, public health, 
agriculture, energy issues, and coastal communities become more acute. 
At the same time, climate sciences are making great strides in 
producing knowledge that could aid decision-makers dealing with these 
issues.
    University of Washington's Climate Impacts Group (CIG) was the 
first project funded by RISA's predecessor, in 1995, and there are now 
a total of eight regional projects. CIG has developed close connections 
with the public, private, and North American tribal groups and agencies 
responsible for managing the region's water, forest, fishery, and 
coastal resources in order to ensure that our research results in 
information and products that are not only useful, but also used to 
shape decisions in the PNW. As a result of this interaction, CIG has 
gained a clear picture of the current use and perceived value of 
climate forecasts by natural resource managers, insight into their 
decision calendars, and an understanding of institutional barriers to 
adaptability. Stakeholders benefit from the development of improved 
tools and information for planning, such as resource forecasts and 
regional- and resource-specific interpretations of global climate 
change. Members of CIG's stakeholder community are listed in Appendix 
A. A sustained regional focus over the course of more than a decade has 
allowed deep two-way interactions to develop, with scientists learning 
from natural resource managers and vice versa toward a shared goal of 
improving resilience to climate variations and change.
    In addition to regional focus, the Nation's State Climatologists 
serve their respective states. While the primary focus of most State 
climatologists is delivering weather and climate data, many also 
develop higher-level products in response to stakeholder needs, for 
example, specialized tools for drought monitoring.

National expertise, sectoral focus

    While regional- and State-level focus is a critical part of climate 
services, in a number of respects a national-level effort is also 
needed. National-level expertise in climate science can provide the 
highest-quality, most comprehensive information about patterns of 
climate variation and change. Such expertise can be brought to bear on 
problems that may be too difficult for a single regional group to 
solve. For example, to properly construct probabilistic scenarios of 
future climate at a given location would ideally involve evaluating 
tens of scenarios from global climate models and weighting them 
appropriately according to their fidelity at simulating past climate, a 
task that is both computationally and conceptually challenging. Another 
example would be the construction of probabilistic sea level rise 
scenarios accounting for global sea level change, local relative land 
motions, possible contributions from changes in atmospheric 
circulation, etc. Finally, as the Federal Emergency Management Agency 
undertakes the redrawing of food plain maps nationwide, a thorough 
probabilistic assessment of the possible changes in food risk 
associated with climate change could best be accomplished by a 
national-scale effort.

Preserving observation networks

    As numerous reports by the National Research Council and others 
have documented, the Nation's various observing networks and notably 
the Cooperative Observer Network are slowly dwindling in coverage and 
quality. An urgent effort is needed to preserve these networks as a 
legacy for future generations and as our primary source of information 
for documenting the changes in our environment and our climate, whether 
these changes be natural or man-made. See also the attached letter from 
the American Association of State Climatologists.

Why undertake a new National Assessment

    In the roughly ten years since the first National Assessment was 
begun, the science of climate change has advanced immensely. 
Atmospheric general circulation models (AGCMs) have been replaced by 
climate system models that simulate also the ocean, land surface 
processes, sea ice, and even components of the biosphere and carbon 
cycle in tremendous detail. Hundreds of simulations have been performed 
with these models describing the evolution of the climate from 1900 to 
2100, allowing comparisons with past climate and projections of future 
climate. Attribution of climate change to human activity can now be 
performed not just for globally averaged temperature but for sub-
continental temperature changes and also for changes in other, more 
societally-relevant climate variables. Paleoclimate research has 
dramatically improved our understanding of past climate variability and 
change. Finally, regional climate modeling has also advanced, 
permitting much higher resolution simulations and better information 
over complex terrain such as the mountainous West. A comprehensive 
effort at regional modeling is underway, called North American Regional 
Climate Change Assessment Program (NARCCAP), coordinated by the 
National Center for Atmospheric Research.
    In addition to significant advances in the science, a second reason 
to undertake a new National Assessment is that attitudes toward climate 
have advanced. Officials with federal, State, regional, local agencies, 
private companies, consultants, and others, are wondering how to 
incorporate the best information about climate change into plans, 
policies, and reports. Members of RISA teams, like the Climate Impacts 
Group, are straining to meet the demands for information. These 
requests come to CIG in the form of specific questions, requests for 
academic papers, requests for data including detailed probabilistic 
climate scenarios, in-person presentations at the rate of about 150/
year, media interviews, analysis of climate variables, explanations of 
or comments on controversial points, and requests to review reports, 
web sites, and the like. These questions can be answered in limited 
fashion by the existing network of RISA programs and State 
climatologists.
    Far better would be to match national capabilities in science 
research with regional and sectoral needs for climate information, 
especially if a national assessment led to creation of a National 
Climate Service that included additional regional teams covering areas 
of the country not currently served by the RISA program. These 
capabilities were suggested in the President's Climate Change Science 
Program, in which one of the goals was Decision Support, but few 
resources were devoted to making decision support a reality.

Tasks to create a National Assessment and National Climate Service

    Creating new regional teams and strong sectoral assessment 
capabilities would require significant agency investment not just in 
dollars but in effort and time. A thorough assessment would require 
tens of millions of dollars per year, scaling up the funds that support 
the existing eight regional assessment teams in the RISA program to a 
comparable effort that would serve the entire Nation geographically and 
in addition would create sectorally based assessment efforts. As was 
learned in the first national assessment, substantial effort is 
required to get federal agencies to work together for a common purpose. 
Finally, the timeline should be at least three years from the 
availability of funding to the delivery of a report. This amount of 
time is required to constitute new teams, forge partnerships between 
key stakeholders and scientists, and write and peer-review a set of 
reports.
    Beyond the production of a report, the National Assessment should 
catalyze the creation of networks for delivering useful climate 
information and reducing societal vulnerability to climate variation 
and change. A useful prototype of such a network is the National 
Integrated Drought Information System, which seeks to combine the 
skills and resources of federal agencies in producing timely drought 
analysis and warnings, and in finding ways to reduce societal 
vulnerability to drought.

Appendix A

               Stakeholders of UW's Climate Impacts Group

Local level

City of Tualatin, Oregon
King County, Washington
Local watershed planning units
Portland Water Bureau
Puget Sound Clean Air Agency
Seattle City Council
Seattle City Light
Seattle Public Utilities
Tacoma Power and Light
Thurston County, Washington

State Level

Alaska Department of Fish and Game
California Department of Water Resources
Idaho Department of Water Resources
Oregon Department of Agriculture
Oregon Department of Land Conservation and Development
Oregon Department of Water Resources State Governor's Offices 
(Washington, Oregon, Idaho)
State Legislatures (Washington, Oregon, Idaho)
Washington Department of Agriculture
Washington Department of Ecology
Washington Department of Fish and Wildlife
Washington Department of Health
Washington Department of Natural Resources
Washington Division of Emergency Management
Washington State Office of Financial Management

Regional or Federal Level

Bonneville Power Administration
International Pacific Halibut Commission
National Marine Fisheries Service [Northwest Fisheries Science Center 
and the Alaska Fisheries Science Center]
National Oceanic and Atmospheric Administration, River Forecast Center
National Park Service
U.S. Army Corps of Engineers
U.S. Bureau of Land Management
U.S. Bureau of Reclamation
U.S. Congress, PNW delegation
U.S. Department of Agriculture, Natural Resource Conservation Service
U.S. Department of Energy, Pacific Northwest National Laboratory
U.S. Environmental Protection Agency
U.S. Fish and Wildlife Service
U.S. Geologic Survey

Tribal

Columbia River Inter-Tribal Fish Commission
Northwest Indian Fisheries Commission

Other

BC Hydro (British Columbia, Canada)
Idaho Power Company
National Wildlife Federation
North Pacific Fisheries Management Council
Northwest Power and Conservation Council
Oregon State University, Coastal Impacts
PNW news media (print and broadcast)
Puget Sound Energy
Sustainable Development Research Institute, University of British 
Columbia
University of Idaho
University of Victoria
Wild Salmon Center

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Philip W. Mote

    Dr. Philip Mote is a research scientist at the University of 
Washington, in the Climate Impacts Group (CIG), and an Affiliate 
Professor in the Department of Atmospheric Sciences. His research 
interest include Northwest climate and its effects on snowpack, 
streamflow, and forest fires. A frequent public speaker, he has also 
written more than 60 scientific articles and edited a book on climate 
modeling, published in 2000. In 2003 he became the Washington State 
Climatologist. He served as a lead author of the Fourth Assessment 
Report of the Intergovernmental Panel on Climate Change released in 
2007.

    Ms. Giffords. Thank you, Dr. Mote. The Committee stands in 
recess.
    [Whereupon, at 2:51 p.m., the Subcommittee recessed, to 
reconvene at 3:22 p.m.]
    Mr. Udall. [Presiding] The hearing will come to order. I 
want to thank the panelists for your patience. I am going to 
sit in as Acting Chair for Congresswoman Giffords, who was 
required to go to the airport and return to her home in 
Arizona.
    We will pick up back with Ms. Bittleman for her five 
minutes, and then, I would tell the panel we will do all that 
we can to end at the latest, by 4:00, perhaps five or ten 
minutes early, but we do want to take advantage of your 
expertise and your presence.
    Ms. Bittleman, the five minutes is yours.

 STATEMENT OF MS. SARAH BITTLEMAN, DIRECTOR, WASHINGTON, D.C., 
 OFFICE OF THE GOVERNOR OF OREGON, THEODORE R. KULONGOSKI, ON 
          BEHALF OF THE WESTERN GOVERNORS' ASSOCIATION

    Ms. Bittleman. Thank you very much, sir.
    Thank you for the opportunity to address the Committee 
today regarding H.R. 906. My name is Sarah Bittleman. I work 
for the Governor of Oregon, Governor Kulongoski, here in 
Washington, D.C. I would like to thank the sponsors, 
Representative Udall and Representative Inglis especially, for 
their bipartisan effort on this bill, as well as for their 
outreach to the Western states in its development. The Western 
Governors Association, which I am representing here today, 
appreciates the specific effort to make this bill relevant to 
and address the needs of the states.
    With the efforts occurring in Oregon and in many Western 
states to address climate change, the Western Governors believe 
it is not only appropriate, but it is also necessary to 
reorient and fully fund the U.S. Global Change Research Program 
to make it more user-driven. The U.S. has spent considerable 
dollars on understanding the science of climate change. Now is 
the time to address and adequately fund the issue of 
adaptation. How will climate change manifest itself in 
different areas of the country? What impacts can we expect at 
the State and local levels? How can we prepare for the change 
in an effort to avoid or mitigate the impacts? How can we most 
effectively implement adaptation measures, given that many of 
them need a long lead time?
    At the risk of sounding like an advertisement for a summer 
blockbuster movie, I need to recite some of the very real 
effects of climate change projected for the American West: 
smaller snowpacks that lead to water shortages; earlier 
snowmelt that lead to water shortages; and yet, more extreme 
floods; more evaporation and dryness; less groundwater; more 
drought; more wildfires; pest and disease, more of them 
affecting our agricultural crops and forests.
    I don't think I need to remind the Members of the Committee 
that there are already substantial stressors on water in the 
West today. Given global climate change, we expect additional 
ones. The Western Governors stated in their 2006 report, 
entitled ``Water Needs and Strategies for a Sustainable 
Future,'' that Congress and the Administration should fund 
research that makes it easier to predict and mitigate climate 
change impacts.
    The Governors believe Title I of H.R. 906 would 
appropriately focus the research of the U.S. Global Change 
Research Program on improving the understanding of global 
climate change, responding to the information needs of 
communities and decision-makers, and providing periodic 
assessments of the vulnerabilities of the U.S. and other 
regions to global climate change. In other words, making the 
program more user-driven and user-friendly.
    Some states are already creating their own climate change 
research centers, including Oregon. In May 2006, Governor 
Kulongoski created the Climate Change Integration Group to 
develop a climate change strategy for Oregon that provides 
long-term sustainability for the environment, protects public 
health, considers social equity, creates economic opportunity, 
and expands public awareness. Their main focus has been on 
adapting to climate change.
    It is important that the program created under H.R. 906 
integrates and supports the State efforts that are already in 
existence, like the one in Oregon and across the West, as well 
as regional climate research and application centers. This 
includes the State climatologists' offices, agricultural 
extensions, State and local governments, and resource 
management agencies.
    Additionally, Western Governors stated in their 2006 report 
that the federal agencies must continue to fund and expand 
funding for data collection networks and activities necessary 
for monitoring, as Dr. Mote mentioned, assessing and predicting 
future water supplies. To the degree that Title II of the bill 
would lead to such improvements in data management, the 
Governors certainly believe it is appropriate and supported.
    One recommendation that we would make for the bill is to 
amend it to address the need for a National Climate Information 
Service in the context of the U.S. Global Change Research 
Program. A National Climate Service, as again, Dr. Mote 
mentioned, such a Service would be the focal point for 
coordination of climate activities across the Federal 
Government, and could be the organization charged with such 
responsibilities as making sustained climate observations and 
assessments about the state of the climate, and providing 
climate outlooks and projects, similar to an early warning 
system. Additionally, the NCIS could provide routine 
assessments of climate impacts and vulnerabilities, and develop 
relevant products and services for decision and policy-makers.
    The National Integrated Drought Information System that 
this committee authorized last year would thus become an 
important component of a larger climate information system. The 
Western states see all of this as very much connected. 
Decision-makers at all levels of government and in the private 
sector need reliable and timely information to understand the 
possible impacts of the response, and respond to the effects of 
climate change.
    The Western Governors Association supports H.R. 906 as an 
effort to move the Nation's climate change research program in 
this direction, and I welcome any questions you might have.
    [The prepared statement of Ms. Bittleman follows:]

                 Prepared Statement of Sarah Bittleman

    Chairman Gordon and Members of the Committee, my name is Sarah 
Bittleman, and I am the Director of Oregon Governor Theodore 
Kulongoski's Washington, D.C. Office.
    Thank you for the opportunity to address the Committee today 
regarding H.R. 906, the Global Climate Change Research Data and 
Management Act of 2007. I appear before you on behalf of the Western 
Governor's Association (WGA)--an independent, nonprofit organization 
representing the governors of 19 Western States, American Samoa, Guam 
and the Northern Mariana Islands. Through their Association, the 
Western governors identify and address key policy and governance issues 
in natural resources, the environment, human services, economic 
development, international relations and public management.
    Before making specific comments about the U.S. Global Change 
Research Program and the legislation before you today, I would like to 
thank the sponsors of H.R.906, Representative Udall and Representative 
Inglis, for both their bipartisan effort on this bill, and their 
outreach to the Western States in its development.
    Last year, WGA worked closely with this Committee on the 
development and passage of legislation authorizing the National 
Integrated Drought Information System Act of 2006 (NIDIS). There was a 
high degree of bipartisan cooperation on this Committee, and in 
particular among the sponsors of the NIDIS bill--Mr. Udall and then-
Chairman Hall--and this cooperation undoubtedly led to the successful 
passage of that bill. The Governors are very pleased to see this spirit 
of cooperation from the Committee continuing with your efforts on H.R. 
906.
    Additionally, the Governors want to thank Mr. Udall and Mr. Inglis 
for their outreach to the Western States in soliciting input into the 
development of H.R. 906. WGA appreciates the specific effort to make 
this bill relevant to, and address the needs of, the States.
    Mr. Chairman, with the efforts occurring in Oregon and many western 
states to address climate change, the Western Governors believe it is 
not only appropriate, but also is necessary to reorient and fully fund 
the U.S. Global Change Research Program to make it more user-driven. 
Since the time the USGCRP was enacted in 1990, the debate on climate 
change in this country has largely focused on whether the world is 
warming and whether humans are the cause of that warming. The current 
science indicates that the Earth is warming and that concentrations of 
atmospheric CO<INF>2</INF> have increased significantly. In a 2005 
statement, the United States National Academies of Science concluded, 
``the scientific understanding of climate change is now sufficiently 
clear to justify taking prompt action.'' Eleven National Academies of 
Science from the major nations of the world, including the United 
States, the United Kingdom, Japan, China, Russia, and others, have 
agreed that science supports the fact that climate change is occurring, 
is influenced by human activity, and presents risks that should be 
addressed through changed practices and preparation for changed 
conditions.
    The U.S. has spent considerable dollars on understanding the 
science of climate change, and we must now look to addressing and 
adequately funding the issue of adaptation. The focus of the USGCRP 
research must now move with greater focus to help states, tribes and 
local governments understand what that means: How will climate change 
manifest itself in different areas of the country? What impacts can we 
expect at the State and local levels? How can we prepare for the change 
in an effort to avoid or mitigate the impacts? How can we most 
effectively implement adaptation measures given that many of them will 
require a long lead-time?
    Impacts from warming that have been projected for the West include 
the following:

        <bullet>  Smaller snowpacks--winter precipitation could fall as 
        rain instead of snow; periods of snowpack accumulation could be 
        shorter; and snowpacks could be smaller, which has serious 
        implications for reservoir storage.

        <bullet>  Earlier snowmelt--warming earlier in the year could 
        melt snowpacks sooner, further increasing the length of time 
        between peak water flows and peak water demands from cities, 
        farmers, utilities, etc., requiring more reservoir storage to 
        capture the earlier runoff.

        <bullet>  Rainfall--it is expected that precipitation will come 
        more in the form of rain than snow, but it is not understood 
        whether overall precipitation will increase or decrease, or 
        what the temporal and spatial changes of precipitation will be.

        <bullet>  Flood-control releases--water managers may be forced 
        to make changes in reservoir operations and rule curves.

        <bullet>  More extreme flood events--extreme events could be 
        more common, causing more frequent and larger floods. In some 
        cases, existing flood control `rule curves' should be 
        reformulated.

        <bullet>  Floodplain management--extensive efforts will be 
        needed to better map and define floodplains, and interaction 
        with local governments will be required to shape the direction 
        of future development in floodplains.

        <bullet>  Receding glaciers--some scientists have suggested 
        Glacier National Park could be void of glaciers by 2030 as a 
        result of warming.

        <bullet>  More evaporation and dryness--higher temperatures 
        could increase evaporation from streams and reservoirs, soil 
        dryness, and the need for supplemental water for crops and 
        other plants.

        <bullet>  Less groundwater--less availability of surface water 
        supplies may lead to increased pumping from groundwater 
        aquifers, further stressing groundwater supplies and 
        hydraulically connected surface water supplies.

        <bullet>  More droughts--more intense, frequent, and longer-
        lasting droughts could result.

        <bullet>  More wildfires--there could be an increase in the 
        number and severity of wildfires and an extended wildfire 
        season.

        <bullet>  More pests and disease--there could be an increase in 
        the types of disease and pests that exist and proliferate which 
        would adversely impact human public health as well as forest 
        and agriculture health.

        <bullet>  Water quality challenges--diminished streamflows 
        during drought could result in less dilution of discharges; 
        sediment loading from storm events that follow wildfires; 
        saltwater intrusion along the coast resulting from rising sea 
        levels; and warmer lake temperatures leading to algae blooms 
        could follow.

        <bullet>  Sea level rise--investments in infrastructure to 
        adapt to rising sea levels will be necessary.

        <bullet>  Hydroelectric generation--climate changes that alter 
        overall water availability and timing could reduce the 
        productivity of hydropower facilities; changes in the timing of 
        hydroelectric generation can affect the value of the energy 
        produced.

        <bullet>  Water-borne shipping--decreases in river flows could 
        reduce the periods when navigation is possible; increase 
        transportation costs; and increase conflicts over water 
        allocated for other purposes.

        <bullet>  Ecosystems--natural ecosystems and wildlife have 
        limited ability to adapt or cope with climate changes that 
        occur over a relatively short time frame, which could lead to 
        irreversible impacts, such as additional species extinctions.

        <bullet>  Recreation impacts--due to lower lake and stream flow 
        levels, recreation opportunities and economies could be 
        significantly reduced.

    Given the existence of a number of variables, it is not currently 
possible to predict or model with any precision if, how and when a 
particular area within the region may be impacted. More flexible 
institutional arrangements are needed in order to adapt to changing 
conditions related to climate change and other existing stresses as 
well.
    It must be recognized that there is already substantial stress on 
the water sector today even in the absence of climate change. There are 
many watersheds that are already fully-appropriated, and new stresses 
are coming from population growth, land use changes, and water needs 
for in-stream uses, including those necessary to meet federal laws such 
as the Endangered Species Act and the Clean Water Act. In some areas, 
the new demands may cause major shifts in water supply and water 
rights. Climate change may pose additional stresses and could result in 
thresholds being reached much earlier than currently anticipated.
    The Western Governors stated in their 2006 report, Water Needs and 
Strategies for a Sustainable Future, that Congress and the 
Administration should fund research for improving the predictive 
capabilities for climate change, and assessment and mitigation of its 
impacts. Additionally, given the complex climatology in the West, it is 
important that climate change modeling be conducted at a much finer 
resolution, e.g., watersheds and sub-watersheds. It is also important 
that the federal government implement research funding recommendations 
associated with Goals 4 and 5 of the 2003 CCSP Strategic Plan, 
including the area of increased partnerships with existing user support 
institutions, such as State climatologists or climate centers, regional 
climate centers, agricultural extension services, resource management 
agencies, and State and local governments.
    Consistent with their report, the governors believe Title I of H.R. 
906 would appropriately focus the research of the U.S. Global Change 
Research Program on improving the understanding of global climate 
change, responding to the information needs of communities and 
decision-makers, and providing periodic assessments of the 
vulnerabilities of the U.S. and other regions to global climate change. 
Some states are creating their own climate change research centers, 
including Oregon. It is important that the program created under H.R. 
906 integrates and supports the efforts of State and regional climate 
research centers.
    Additionally, Western Governors stated in their report that the 
federal agencies must continue and expand funding for data collection 
networks and activities necessary for monitoring, assessing, and 
predicting future water supplies. To the degree Title II of the bill 
will lead to such improvements to data management, the governors 
believe it is appropriate.
    One recommendation that we would make for the bill is to amend it 
to address the need for a National Climate Information Service in the 
context of USGCRP. Such a service could be the focal point for 
coordination of climate activities across the Federal Government, and 
could be the organization charged with such responsibilities as making 
sustained climate observations and assessments about the state of the 
climate and providing climate outlooks and projections (similar to an 
early warning system). Additionally, the NCIS could provide routine 
assessments of climate impacts and vulnerabilities and develop relevant 
products and services for decision- and policy-makers. The National 
Integrated Drought Information System (NIDIS) that you authorized the 
last year would thus become an important component of this larger 
climate information system.
    On May 4 of last year, the Western Governors' Association testified 
before your committee in support of the NIDIS bill stating:

         No systematic collection and analysis of social, environmental 
        and economic data focused on the impacts of drought within the 
        United States exists today. Understanding these impacts of 
        drought will empower users and expand the comprehension of the 
        full magnitude of drought losses. By so doing, it will 
        encourage local, State and federal officials to increase 
        efforts in drought planning, preparation, and mitigation. . .. 
        The National Integrated Drought Information System will allow 
        policy-makers and water managers at all levels of the private 
        and public sectors to make more informed and timely decisions 
        about water resources in order to mitigate or avoid the impacts 
        from droughts.

    These same statements could also be applied to the broader needs of 
climate data and research. Decision-makers at all levels of government 
and in the private sector need reliable and timely information to 
understand the possible impacts and corresponding vulnerabilities that 
are posed by climate change so they can plan and respond accordingly. 
The Western Governors' Association supports H.R. 906 as an effort to 
move the Nation's climate change research program in this direction.

                               Discussion

                       The USGCRP Budget Process

    Mr. Udall. Thank you, Ms. Bittleman. Thank you, Members of 
the panel, for your excellent testimony.
    At this point, we will open our first round of questions, 
and I will recognize myself for five minutes. And I want to 
start with a constituent, a Coloradan, Dr. Fellows.
    As you well know from your experience at the Office of 
Management and Budget, in coordinating agency budgets for the 
USGCRP, the budget process for interagency programs is always a 
challenge, shall we say. Would you elaborate on your 
recommendation that the USGCRP Interagency Committee have ``a 
clear budget process linking tasks to agency and program 
budgets?''
    Are you saying that the Director of the USGCRP must have 
budget authority over the agencies of the USGCRP? Would the 
Director of OSTP, for example, be a good candidate for this 
function?
    Dr. Fellows. Well, there are a lot of options here, you 
know, ranging from the current one, where all the agencies 
retain their budgets, to a completely centralized budget 
process, and I am not sure that either end of the spectrum is 
the right way to go.
    I do think there is an argument to be made for the Director 
of the U.S. Global Change Research Program to be close enough 
to political power to have the clout to make the kind of 
decisions and tradeoffs that you would across an agency, and 
probably, to have some level of budget authority that he can 
use to help encourage, or provide incentives for people to make 
investments in the highest priority areas of the program.
    We used to, when I was in OMB, have an annual budget review 
process, where we actually called all the agencies in. They got 
a chance to present their programs, every relevant budget 
examiner and representative of OSTP had a chance to hear their 
programs, got to see the links between the programs, and I 
thought that that was a pretty effective mechanism to try to 
make the kind of tradeoffs. But we never had the real clout to 
actually be able to say we need to move in one particular area. 
We had to rely on the goodwill between all the agencies to do 
that, so I think that budget authority could help the Director.
    Mr. Udall. Anyone else want to comment on that particular 
question, given Dr. Fellows' expertise, but others have also 
faced this same dilemma?
    Dr. Mahoney. Exactly. Mr. Udall, just a brief comment that 
perhaps it is trying to think pragmatically about what might 
work. I had somewhat of a hybrid position, because I was a 
Senate confirmed subcabinet officer, so I had, for better or 
for worse, political standing over these recent years in 
managing the program, and I had access to the very top of OMB, 
OSTP, and exercised those, and to all of the relevant Cabinet 
officers frequently enough. Still, what I recommend is close to 
what Dr. Fellows has just said, but I would treat it a little 
bit differently.
    I think that there should be a definite recognized 
management and coordination function, because that is where, as 
little as it is, some very important things are done now in the 
communications area, and in getting all these reports out, and 
they are tremendously under-resourced, the people in that 
office work very hard to get it done. But it is also a major 
source of delay, because they are just overwhelmed.
    I think if we took that same office, and I wouldn't want to 
give any climate program head budget authority over a Cabinet 
department. I don't think that makes sense. But if that 
function were placed in one of the departments, but clearly, 
its role was to be subject to the review by the others, and it 
had a very small budget itself in that department, one part for 
its own manpower, for example, which wouldn't be much, and I 
actually have in my statement a recommendation about two other 
functions, close to what Dr. Fellows was talking about. One, 
that would provide a small kitty of developmental and bright 
idea and filling the gaps funds that it could administer on a 
transfer basis or whatever else, and the other one, to provide 
some seed money for some assessment work.
    And to my experience of working in the last several years 
on this, anyway, having that capability, with an element of 
budget, which would flow through that department's own budget, 
but which would be clearly identified as funds to support this 
programmatic activity, would be a way to maintain the normal 
purity of the departments being responsible for their own 
budgets, while having a relatively small budget that could be, 
it could reach around some.
    And that is an area where I would think that some direction 
by the Congress about its desire to see a more efficient and 
effective process, given the complexity of our government, 
would be a positive step.
    Mr. Udall. Thank you, and I see that my time has expired, 
and Doctor, I will come back to you, and I want to, at this 
point, I want to recognize my friend and coauthor of this 
legislation, I want to thank Congressman Inglis again for his 
joining me in this important endeavor, and Mr. Inglis, you are 
recognized for five minutes.

                          Assessment Timeline

    Mr. Inglis. Thank you, Mr. Udall, and I am interested in 
the timeline that, for updating the ten year Global Change 
Research Plan. The bill calls for it being updated every four 
years, and I wonder if you all might want to comment on whether 
you think that is a sufficient schedule for updates, or will it 
become stale within that four year period, or do you have any 
thoughts about that?
    Dr. MacCracken. Well, the first one was developed in about 
1990, and had a theme that was very disciplinary. It had what 
were called seven disciplinary areas, so, ecology and things. 
We actually did develop an alternative approach in the mid-
'90s, to try and cut it a different way, to focus on the 
stratospheric ozone issue, on seasonal to inter-annual, on 
climate change, and on, I think, land cover, and things. There 
wasn't a formal plan put out, although there was, in one of 
these Our Changing Planets a set of objectives and a whole 
bunch of sort of activities that are not a whole lot different 
than what came out in the plan later.
    I think it is useful every, I am not sure four years is the 
right number, but you do need to sort of take a different 
perspective. This is a very complex issue, and there is no 
optimal way to cut it into pieces, and so, I think it helps to 
take different looks at different times, and get different 
perspectives.
    We wanted to do that also on the National Assessment, come 
at it not the second time for climate change, because in four 
years, that wouldn't have changed so much, but come at it, for 
example, on well, what are all the factors affecting land cover 
that we have? Think about global change very broadly. What are 
the things that are affecting land cover? And so that partly is 
climate change and partly variability, and partly atmospheric 
chemistry changes, and a whole bunch of other things. So, cut 
it differently, try and get some new insights.
    So, requiring something in an update, and some re-looking, 
I think, is useful. It can be a hard process, but it is useful.
    Mr. Inglis. And Dr. Fellows.
    Dr. Fellows. I was just going to mention that the world 
climate science community every five years takes a look, it 
essentially takes a temperature of the new science in the 
climate arena, so I think four or five years is probably pretty 
reasonable.
    In the bill, and Dr. Mahoney touched on this, it actually 
talks about a ten year research plan, an annual plan, a 
vulnerability plan, a policy plan, and they are all due the 
first year. It would be interesting to actually look at how 
that plan might change, if you did the vulnerability and the 
policy assessment first. So, there is even some sequencing of 
how you would do these various reports, but a five year cycle, 
a four or five year cycle is probably good for the program plan 
itself.
    Mr. Inglis. Some people might say to us about this bill 
that you know, you can collect information, but is it going to 
help us that much? And I am thinking of the mountain trout, I 
believe it is, in the streams of North Carolina and a little 
bit of South Carolina, in the mountains. Apparently, 1 degree 
Fahrenheit, I believe it is, temperature change, and we have no 
more trout. It warms up 1 degree, and they are gone from our 
rivers.
    And I guess, the question is: is it helpful to know? I 
think it does build awareness. Is that right, Ms. Bittleman?
    Ms. Bittleman. Yes, Mr. Inglis, I had wanted to add to 
this, having the assessments reviewed and updated, and the 
scientific data reviewed and updated periodically, whether it 
is three years, four years, five years, is all very important. 
But from a State perspective, I think it is important to 
realize that the entire process of data collection and 
adaptation and how climate change is being experienced on the 
ground is really, to us, what the important aspect of this bill 
is, which is every year, when data is being collected, at the 
same time, states like Oregon, and in the Carolinas and Pacific 
Northwest, the Carolinas, the states are actually acting. We 
have user groups, we have climate change groups, we have 
scientists, but we also have economists and businesses that are 
really reacting to and trying to anticipate how their 
businesses are going to change.
    Salmon fishery is a very good example in the Pacific 
Northwest. We are looking at salmon populations all the time, 
in conjunction with NOAA, and the question is, you know, is 
climate change going to--what are the long-term effects of 
climate change, and how are we, as an industry, the salmon 
industry, how are they going to react to that? How can we help 
them react to that?
    So, while--I just would hope that you don't, you know, when 
there is a year date for a report, I don't think that is as 
important as the flexibility needed to incorporate all this, 
all the information, science data, but also, activities that 
are happening on the ground, including what is happening in the 
states, and how the states are responding.
    Mr. Inglis. Thank you. My time has expired.

                   Regional vs. National Assessments

    Mr. Udall. Thank the gentleman. We will come back around 
for a second round, if you all can stay. I recognize myself 
again for five minutes, and I want to start with Ms. Bittleman, 
but I would alert the panel that I would like you all to think 
about weighing in once she has had a chance to answer.
    And I want to just talk about this regional versus national 
assessments dynamic that we have. We certainly need regional 
assessments and regional responses, but each individual region 
doesn't stand on its own. You get impacts, consequences in 
other areas. And for this reason, we need also national 
assessments.
    Would you agree, and if so, how do we ensure that the 
USGCRP will serve both of these information needs?
    Ms. Bittleman. Well, since I am here representing a region, 
I am going to fall on the side of preferring a regional 
approach, but I think you are absolutely right. We do need 
national information and a national approach.
    Again, I don't see these things as actually separate. In 
Oregon, and in the Pacific Northwest, we would like to collect 
climate information on a watershed and sub-watershed level. 
That is a much more specific level than a region, than a state 
or a region, and so, what we would like to see is all of this 
information integrated. So, from a sub-watershed to watershed 
to State to region to national level, and we see the 
possibility of integration as the real hope here.

                  The Insurance Industry's Perspective

    Mr. Udall. Anyone else like to respond? Mr. Nutter. And Mr. 
Nutter, by the way, it is always great to have you as part of 
these hearings, because you bring the economic implications of 
much of this to the fore, which is crucial to consider, and it 
is, in fact, why a lot of us have moved, a lot of communities, 
a lot of industries are moving in the direction. Let us respond 
now. We have time.
    Mr. Nutter. Well, thank you for the question and the 
comment.
    From the insurance perspective, regional assessments are 
probably imperative. There is not much point in looking at a 
national assessment without understanding the subcategories of 
all that. The effect of climate change on extreme weather 
events in the Gulf is different than it is for a State like 
Florida, or East Coast or upper East Coast. The same would be 
true, the same comment would be true if you are looking at the 
effect of extreme weather events in the Midwest, the tornados 
and other extreme events.
    So, from our perspective, the regionalization of the 
assessment is, frankly, the most valuable part.
    Mr. Udall. Very good point. Very useful. Dr. MacCracken.

               More on Regional vs. National Assessments

    Dr. MacCracken. I think that is also a very good question. 
We tried, because there are a number of issues that cut across, 
to have sector assessments do that, so you wanted to crosscut 
with that. And so, if you are interested in how the forests are 
going to do, health-wise, locally, you want to have a regional 
one. If you want to understand the market for forest products, 
you have to look more broadly, certainly across the country. Or 
if you want to look at agriculture, you can look at what 
happens to a farmer in a particular place, or you can look at 
food production more broadly.
    So, I think you need both regions, you need sectors, and 
the area that we didn't get to at all in what we were, realized 
needed to get done, was how what happens elsewhere in the world 
affects what happens here, so that can be everything on natural 
factors, like migratory species, to what happens with our 
investments. When there was a drought in Indonesia several 
years ago, there were layoffs on Wall Street. I mean, the world 
is interconnected with investments. It is certainly 
interconnected with respect to health, and it is certainly 
interconnected with respect to environmental refugees.
    IPCC looks at some of these, but it sort of does the 
chapters a little bit separately, and hasn't looked at how one 
set of countries depends on another, and the various economic 
connections. So, there are a lot of different cuts that have to 
be taken, and together, that is how you draw forth the findings 
for a national level report that would be meaningful to Members 
of Congress.
    Mr. Udall. There is an interesting school of thought out 
there when it comes to this challenge we face of responding to 
global change, and we are having that discussion today, or 
climate change, or both. If we would figure--I should say when 
we figure this one out, as the human race, that we will 
actually create a template to deal with a lot of other 
challenges and opportunities and problems that we face across 
the globe.
    And that keeps me going every day, given the size of this, 
and the complexity of what we face.
    Dr. MacCracken. The report that we did, that this UN panel 
recently did for the Commission on Sustainable Development, 
tried to very much make that point, that climate change is 
intimately tied to meeting the Millennium Development Goals, 
and if you don't think about climate change in the context, you 
are not going to be able to ensure meeting the water needs and 
the other kinds of things in particular regions, or severe 
weather, or other kinds of things. So, it is, indeed, all 
coupled, and has to be done that way, looked at that way.

                Climate Change Mitigation and Adaptation

    Mr. Udall. I know my time has expired, but Mr. Inglis and I 
have reached an agreement. I think he has asked the questions 
he would like to ask. I am going to go for a few more minutes, 
and then, we will begin to bring the hearing to a close, but I 
did want to turn back to Mr. Nutter, if I might, for a minute, 
and ask you a question about the large population growth in 
high risk areas that has exacerbated the impacts of climate 
change.
    Would you comment on how H.R. 906 might provide information 
to reduce the vulnerability of these already overstressed 
areas?
    Mr. Nutter. Thank you for the question.
    To the extent that the assessments can help not just our 
industry, the insurance industry, but those who regulate our 
industry, and those who look at protecting people's property 
and lives through building codes or other hazard mitigation, we 
will all learn from the information about increased frequency 
or severity of storms, and other research products from this 
program. It would have enormous public benefit, and obviously, 
the private benefit to all of us who are engaged in risk 
assessment or risk mitigation.
    So, I see it as a valuable product, as we try to understand 
the dynamics of a changing climate. My recollection is that 53 
percent of the U.S. population lives within 50 miles of a 
coast. That is a pretty remarkable exposed population. The 
State of Florida has $2 trillion of insured properties. The 
State of New York has $2 trillion of insured properties. My 
recollection, Mr. Inglis, is that your state has something like 
$150 billion of insured properties.
    It is a remarkable exposure, and our ability to deal with 
the financing of recovery from extreme events, and understand 
the dynamics, so we can protect property and life from that 
would be a byproduct of this legislation.
    Mr. Udall. Thank you for that response. Dr. MacCracken, I 
would turn back to you briefly. You recommend keeping research 
on climate change science separate from that on energy 
technologies. I assume you are referring to technology 
development and research. At some point, however, shouldn't we 
evaluate new energy technologies, their potential deployment 
schedules, their costs, and their missions profiles, to see how 
they will impact atmospheric concentrations of greenhouse 
gases? And in general, where should this analysis of issues 
that intersect the science and technology development occur? 
Easy question, I know.
    Dr. MacCracken. You know, I was, in my comment, just trying 
to keep the, to make sure that the research that goes on about 
what is going to happen, and the decisions about what 
technology research you fund, are not so closely intermixed 
that they bias each other, that you say, well, I mean, I think 
the fear was in some of the 1990s, that people will use climate 
change to justify funding fusion research or something, and we 
really wanted to pursue those kinds of things separately. 
Certainly, you have to look at what the, what will happen, in 
terms of technology, and in fact, if I can just go back to 
comments that Ms. Bittleman and Phil made, when they called for 
a National Climate Information Service, that is absolutely 
vital, but there are some other things we need as well, to 
project into the future that we struggle with, and that 
includes what is going to happen to the Nation's ecosystems, 
sort of the land cover projection, what is going to happen in 
terms of demographics and in economics and technology.
    One of the things we struggled with, in trying to put 
together a useful assessment, was to project well, what is 
really going to happen? Are there things around the corner that 
are going to mean that this isn't the problem? How are we going 
to adapt to it? And one needs to have some sort of perhaps 
central facility to make that happen, or central, maybe it is a 
virtual program, or some place where it comes together, but it 
can't just be Climate Information Service, because as soon as 
you say, well, I have got the Climate Information Service, then 
people are going to ask: ``Well, what is happening with 
economic development?'' Or ``what is happening with 
demographics and population?'' And ``where are people choosing 
to live?'' and all these other issues. And that whole social 
science part of what needs to be in global change isn't really 
well-funded and doesn't even have much of a constituency or 
capability for it.
    Mr. Udall. Dr. Mote, I am going to move to you now, if I 
could.
    Dr. Mote. Sure.
    Mr. Udall. And--if I could ask--you want to comment on 
that, and then, I will ask you a question?
    Dr. Mote. Yeah, let me just comment on the--another aspect 
of this sort of separation that Dr. MacCracken talked about is 
in some instances, mitigating and adapting to climate change do 
come together. For example, evaluating the resilience of 
hydropower to a changing climate, or wind power. So, as we 
design portfolios of future energy, are those portfolios 
themselves resistant to or resilient to the kinds of changes 
that may come down in the future.
    Mr. Udall. That is a very, very good point. Some cases, it 
may work to power needs benefits, in other cases, it may 
actually work the other way. Hydropower----
    Dr. Mote. Yeah, in the Pacific Northwest is having----
    Mr. Udall. Hydropower----
    Dr. Mote.--warming climates actually helps our hydropower 
production, because it puts availability of supply more in sync 
with regional demand. It sort of leaves California in a more 
difficult position, because then, we don't have spare power to 
sell in the summer, but----
    Mr. Udall. I am going to not be tempted to comment on that, 
as a Coloradan, but let me turn to RISA for a minute, and you 
discussed it as an example of a stakeholder-driven climate 
sciences venture. How could the climate program be tailored to 
build upon the work being done by RISA?
    Dr. Mote. Well, the key success of the RISA program has 
been putting top level scientists directly in touch with top 
level decision-makers on the regional, State, and local scale. 
And you know, to some extent, that happens nationally, but 
these are partnerships that lead to better science, because the 
science is then driven by a genuine societal need, and it also 
leads to better management, because the decision-makers are 
slowly learning more about climate.
    Again, it is not just about future climate change, but the 
patterns of variability that we already experience, 
paleoclimate, you know, evaluating how robust is the Colorado 
River Compact, given the 400 year perspective that we get from 
tree rings, things like that.
    Mr. Udall. Thank you. You had to bring the Colorado River 
into this.
    Dr. Mote. I drew my first breath 42 years ago today in the 
high mountain air of Colorado, so----
    Mr. Udall. Today is your birthday?
    Dr. Mote. Yes.
    Mr. Udall. Well, happy birthday. Well, maybe we should----
    Dr. Mote. Thank you.
    Mr. Udall. Well, I think that is a great place to stop at 
this point.
    I did want to yield to Mr. Inglis for a couple of 
concluding remarks, and then, we will bring the hearing to a 
close.
    Mr. Inglis. So, I am going to sing. I will spare you, but 
happy birthday. And I thank Mr. Udall for chairing this part of 
the hearing, and appreciate his work on this, and it has been 
very helpful for me to hear your comments, so thank you for the 
education you have afforded us today.
    Mr. Udall. Well, let me conclude by thanking you all for 
appearing before the Subcommittee. It is clear, I hope, to all 
of you, and those listening, and those participating today, 
that I take the challenge, as does Congressman Inglis, and many 
of us here in the House, of addressing global warming, very 
seriously, and it is one of our highest priorities in the 
Congress.
    Your testimony, as we have said, has been very helpful, and 
I believe that this legislation will take an important step 
forward in providing planners with the tools they need to 
combat climate change.
    Under the rules of the Committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any additional questions they might have for the witnesses.
    At this time, the hearing is now adjourned.
    [Whereupon, at 3:52 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
